RECORD;

Doc. 29. HE 1

ragc

ulvr/.DLr - nvo - Lrlslncl verslon o.l

t 0r 17

CLOSED,APPEAL

United States District Court
District of Nevada (Las Vegas)
CWIL DOCKET FOR CASE #z 2:14-cv-00177-RFB-GWF

Harkey v. US Bank, N.A. et al
Assigned to: Judge Richard F. Boulware,II
Refened to: Magistrate Judge George Foley, Jr
Case in other court: Ninth Circuit, 17-15421
Ninth circuit, I 7-l 5683
Cause: 28:7332 Diversity-Petition to Quiet Title

Date Filed: 0210112014
Date Terminated: 07 107 12011
Jury Demand: Defendant
Nature of Suit: 290 Real Property: Other
Jurisdiction: Diversity

Plaintiff
Michael HarkeY

represented

by John W. Verant
John William Verant, Attorney

at

Law

9800 69th Avenue Norttr
#201
Maple Grove, MN 55369-5668
763-537-1427
Email : JohnWilliarnVerant@q.com
LEAD ATTORNEY
PRO IUC VICE
ATTOKNEY TO BE NOTICED

Robert J. Kern
Kem Law
6787 W. Tropicana Ave
Suite 243
Las Vegas, NV 89103

(702) st8-4s29
Fax: (702) 934-2004
Email : Robert@Kemlawoffi ces'com
LEAD ATTORNEY
ATTOKNEY TO BE NOTICED
Wayne M. Pressel
3094 Research WaY
Ste

6l

Carson City, NV 89706
175-883-4745
Fax: 775-883-4708
Email : wayne@pressel-law. com
LEAD ATTORNEY

Mitchell L Posin
Law Offices of Mitchell L Posin

httns://ecf.nvd.uscourts.sov/csi-bin/DktRpt. pl?10236410051033 8-L-1-1-1

91412011

yage 2

ulvi/.bul - nvcl - ulstnct verslon b.l

oI lv

1645 Village Center Circle
Las Vegas, NV 89134
702-382-2222
Email: mposin@gmail.com
TERMINATED : 0 3/26/20 I 5

Thomas Stafford , Jr.
Law Office of Thomas Stafford
512 South 8th Street
Las Vegas, NV 89101
702-641-2510
Fax:702-647-0012
Email : attomeystafford@gmail. com
TERMINATED : 08/04/20 I 5

V.
Petitioner
Gary Victor Dubin

represented

by Richard Segerblom
700 S. Third St.
Las Vegas, NV 89101
702-388-9600
Fax:702-385-2909
Email : rsegerblom@lvcoxmail.com
ATTORNEY TO BE NOTICED

V.
Defendant
New Century Mortgage CorP.
TERMINATED : 0i/ I 7/20 I 4

Defendanl
Executive Trustee Services, Inc.
TERMINATED : 0 3 / I 7/2 0 I 4

Defendant
Select Portfolio Servicing

represented

by

StacY H. Rubin
WrightFinlaY &Zak,LLP
7785 W. Sahara Ave., Ste. 200

Las Vegas, NV 89117
702-475-7964
Email : srubin@wrightlegal.net
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Chelsea Crowton
Wright, Finlay & Zak,LLP

htrnc.//enf nvd rrse.orrrts.sov/csi-hin/DktRot.ol?102364100510338-L

1

1-1

91412017

rage

ulvl/trur - nvo - ljlsrnct verslon o.l

) oL tv

7785 W . Sahara Ave., Suite 200
Las Vegas, NV 89117
702-41s-7964
Email : ccrowton@wrightlegal.net
TERMINATED : 08/ I 3/20 I 4

Dana Jonathon Nitz
Wright, Finlay & Zak,LLP
7785 W. Sahara Ave., Suite 200
Las Vegas, NV 89117
102-475-7964
Fax:702-946-1345
Email : dnitz@wrightlegal.net
ATTORNEY TO BE NOTICED

Defendant
U.S. Bank, N.A.

represented

by StacY H. Rubin
(See above for address)

LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Chelsea Crowton
(See above for address)
TERMNATED: 08/1 3/2014

Dana Jonathon Nitz
(See above for address)
ATTORNEY TO BE NOTICED

Defendant
CSMC Mortgage Backed Trust
2007-6

represented

by Chelsea Crowton
(See above for address)

TERMINATED : 0B/ I 3/20 I 4

Defendant

Credit Suisse First Boston Mortgage
Securities CorPoration

represented

by

StacY H. Rubin
(See above for address)

LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Chelsea Crowton
(See above for address)
TEfuMINATED : 08/ I 3/20 I 4

Dana Jonathon Nitz
(See above for address)
ATTORNEY TO BE NOTICED
D_efendant

httns://ecf.nvd.uscourts.eov/cei-bin/DltRpt'pl?102364100510338-L

I

1-1

91412017

rdgs + QL tv

uvu-bul - nvo - Lrlsrtct verslon o.l
DLJ Mortgage CaPital, Inc.

represented

by Stacy H. Rubin
(See above for address)
LEAD ATTORNEY
ATTOKNEY TO BE NOTICED

Chelsea Crowton
(See above for address)
TERMINATED : 08/ I 3/20 I 4

Dana Jonathon Nitz
(See above for address)
ATTOKNEY TO BE NOTICED
Defendant
Wells X'argo Bank, N.A.

represented

by StacY H. Rubin
(See above for address)

LEAD ATTORNEY
ATTOKNEY TO BE NOTICED
Chelsea Crowton
(See above for address)
TERMINATED: 08/ I 3/20 I 4
DefenCant

Merscorp Holdingsr Inc.

represented

by ClaY M. Carlton
Morgan, Lewis & Bockius LLP
200 S. BiscaYne Blvd.
Suite 5300
Miami, FL3313l-2339
305-415-3447
Fax: 305-41 5-3001
Email : ccarlton@morganlewis'com
LEAD ATTORNEY
PRO HAC VICE
ATTOENEY TO BE NOTICED

Erica J Stutman
Snell & Wilmer L.L.P.
One Arizona Center
400 E. Van Buren St., Ste. 1900
Phoenix, A285004
602-382-6000
Fax 602-382-6070
Email : estutman@swlaw.com
LEAD ATTORNEY
ATTORNEY TO BE NOTICED

Patrick Gerard BYrne
Snell & Wilmer

httns.//ecf.nvd.uscourrs.sov/csi-bin/DktRpt.pl?102364100510338-L

l1-1

91412017

CM/.bUl' - nvd - Dtstnct Verslon

vage

6.1

) oI ly

3883 Howard Hughes Pkwy., Ste l 100
Las Vegas, NV 89169
702-784-5201
Fax:102-784-5252
Email: pbyrne@swlaw.com
LEAD ATTORNEY
ATTORNEY TO BE NOT]CED

Robert M. Brochin
Morgan, Lewis & Bockius LLP
200 S. Biscayne Blvd.
Miami, FL 33l3l-2339
305-415-34s6
Fax: 305-415-3001
Email:
bobby.brochin@morganlewis. com
LEAD ATTORNEY
PRO HAC VICE
ATTOKNEY TO BE NOTICED
Chelsea Crowton
(See above for address)
TERMINATED : 08/1 3/20 I 4

\-'

Pgfendant
Mortgage Electronic Registration
Systems,Inc. (MERS)

represented

by Clay M. Carlton
for address)
LEAD ATTORNEY
PRO HAC VICE
ATTORNEY TO BE NOTICED
(See above

Erica J Stutman
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED

Patrick Gerard Byrne
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED

Robert M. Brochin
(See above for address)
LEAD ATTORNEY
PRO HAC YICE
ATTORNEY TO BE NOTICED
Chelsea Crowton

httos://ecf.nvd.uscourts.sov/csi-bin/DktRot.ol?102364100510338-L

11-1

91412017

Yage 6 oL'19

uM/.b,ul' - nvd - ljtstnct verslon o.l
(See above for address)
TERMINATED : 08/ I 3/20 I 4

\-

Defendant

Quality Loan Service CorPoration

represented

by Kristin A Schuler-Hintz
McCarthy & Holthus, LLP
9510 West Sahara Avenue
Suite 1 10
Las Vegas, NV 89117
702-68s-0329
Fax: 866-339-5691
Email : FDCNV @mccarthyholthus. com
LEAD ATTORNEY
ATTORNEY TO BE NOTICED

Defendgnt
Black Knight Financial Selices,

LLC
formerly known as

Lender Processing Services, Inc.

represented

by Marni Rubin Watkins
Fidelity National Law GrouP
8363 West Sunset Road
Suite 120
Las Vegas, NV 89113
702-661-3000
Fax 702-697-2024
Email : marni.watkins@fuf. com
LEAD ATTORNEY
ATTOENEY TO BE NOTICED
James E. Heffner
Hahn Loeser & Parks LLP
600 West BroadwaY Suite 1500
San Diego, CA92101
619-810-4300
Email : j heffrrer@hahnl aw. com
ATTORNEY TO BE NOTICED

Michael Gleason
Hahn Loeser & Parks LLP
600 West Broadway Suite 1500
San Diego, CA9210l
619-810-4300
Email : mgleason@hahnlaw.com
ATTORNEY TO BE NOTICED

Defendan(

Fidelity National Financial Inc

represented by Marni Rubin Watkins
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED

hffns://ecf.nvd.rrscourts.sov/csi-bin/DktRnt.ol?102364100510338-L

I

I -1

9t412017

UM/BCI' - nvd - District Version

Page 7 ot'79

6.1

James E. Heffner
(See above for address)
ATTORNEY TO BE NOTICED

Michael Gleason
(See above for address)
ATTORNEY TO BE NOTICED

Defendant
Jesse Bewley

represented

by James E. Heffner
(See above for address)
ATTOKNEY TO BE NOTICED

Defendant
Joseph Noel

represented

by Joseph Noel
745 W. Rochelle Ave. Bldg 9 #205
Las Vegas, NV 89103
PRO SE
5

Defendant

Christina Allen
also luown as

represented

by James E. Heffner
(See above for address)
ATTORNEY TO BE NOTICED

Schartwing

Marni Rubin Watkins
(See above for address)
ATTOKNEY TO BE NOTICED

Michael Gleason
(See above for address)
ATTOKNEY TO BE NOTICED
Defendant
Shoua Moua

represented

by James E. Heffner
(See above for address)

ATTORNEY TO BE NOTICED

Marni Rubin Watkins
(See above for address)
ATTORNEY TO BE NOTICED

Michael Gleason
(See above for address)
ATTORNEY TO BE NOTICED
Defendant

Bill Koch

represented

by

StacY H. Rubin
(See above for address)

hftnc.//enf nvd rrqe.nrrrtc oov/cqi-hin/T)ktRnt nl?1C|]-764100-510338-L

l 1-l

914120t7

yage 6

CM/HUI' - nvd - Dtstnct Verston 6'l

oI

19

LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Chelsea Crowton
(See above for address)
TERMINATED : 08/ I 3/20 I 4
Dana Jonathon Nitz
(See above for address)
ATTOKNEY TO BE NOTICED

Defendant

Kimberly Clark

represented

by StacY H. Rubin
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED

Chelsea Crowton
(See above for address)
TEfuMINATED : 08/ I 3/20 I 4
Dana Jonathon Nitz
(See above for address)
ATTORNEY TO BE NOTICED

\-.

Pefendant
Vanessa Gonzales

represented

by Kristin A Schuler-Hintz
(See above for address)

LEAD ATTORNEY
ATTOKNEY TO BE NOTICED

Defendant

Michelle Nguyen

-

represented bY

Bridget B. Burns
Olins Riviere Coates and Bagula LLP
2214 Second Ave.
San Diego, CA 92101
619-272-4235
Email : burns@orcblawfirm' com
LEAD ATTORNEY
PRO HAC VICE
ATTORNEY TO BE NOTICED

Kristin A Schuler-Hintz
(See above for address)

LEAD ATTORNEY
ATTORNEY TO BE NOTICED

Mark Scott Bagula
Bagula, Riviere, Coates and Associates,

httnc. //eef nvd rrsenrrr{s oov/coi-hin/DktRnt.nl?

1

02364 1 005 1 033

8-L 1

I-

1

91412017

ulwtu-r

rage v oI t>

- nvo - lJlslrlcr verslon o.l

LLP
9888 Canoll Centre Road
Suite 235
San

Diego, CA92126

619-212-4235
Fax: 619-272-4309
Email : bagula@brcaa.com
LEAD ATTORNEY
PRO HAC YICE
ATTORNEY TO BE NOTICED

Martin L. Welsh
Law Office of Hayes & Welsh
199 N. Anoyo Grande Blvd.
Henderson, NV 89074
(702) 434-3444
Fax (702) 434-3739
Email : mwelsh@lvlaw.com
LEAD ATTORNEY
ATTOKNEY TO BE NOTICED

Defendant
Safeguard Properties, LLC

represented

by

Tess

Emily Johnson

Backus Carranza
3050 S Durango Dr
Las Vegas, NV 89117
702-872-555s
Email : tj ohnson@backuslaw.com
LEAD ATTORNEY
ATTOKNEY TO BE NOTICED
Jack P. Burden
Backus Carrarva
3050 South Dwango Drive
Las Vegas, NV 89117
872-5555
Fax 872-5545
Email : jburden@backuslaw.com
ATTORNEY TO BE NOTICED

Defendant

Adam Fenn
Defendant

Earl Beutler

represented

by James E. Heffner
for address)
LEAD ATTORNEY
PRO HAC YICE
ATTORNEY TO BE NOTICED
(See above

https://ecf.nvd.uscourts.gov/cgi-bin/DktRpt.pl?102364100510338-L

11-1

914/2017

Llvl/l,Lr - nvo - ulsulct verston

vage tv or tv

o' I

Michael Gleason
(See above for address)

LEAD ATTORNEY
PRO HAC YICE
ATTORNEY TO BE NOTICED

Marni Rubin Watkins
(See above for address)
ATTORNEY TO BE NOTICED

Defendant
Eve Beutler

represented

by James E. Heffner
(See above for address)

LEAD ATTORNEY
PRO HAC VICE
ATTORNEY TO BE NOTICED

Michael Gleason
(See above for address)

LEAD ATTORNEY
PRO HAC VICE
ATTORNEY TO BE NOTICED

Marni Rubin Watkins
(See above for address)
ATTORNEY TO BE NOTICED

Defendant

Credit Suisse, AG

Pefendant
Old Republic Titte ComPanY of
Nevada
TERMINATED : 02/0 6/2 0 I 7

represented

by Dana Jonathon Nitz
(See above for address)
ATTORNEY TO BE NOTICED

-

represented

by Christian T Balducci
Marquis Aurbach Cofflrng
10001 Park Run Ave
Las Vegas, NV 89145
702-382-0711
Fax:702-856-8971
Email: ctb@maclaw.com
ATTORNEY TO BE NOTICED

Terry A. Moore
Marquis & Aurbach
10001 Park Run Drive
Las Vegas, NV 89145
702-382-0711

httns://ecf.nvd.uscourts.eov/csi-bin/DktRpt.pl?102364100510338-L

11-1

9/412017

Pagellot19

CM/ECF - nvd - lJistrict Verston 6.1

Email : tmoore@marquisaurbach. com
ATTORNEY TO BE NOTICED

\-

Defendant
Nancy BrodY
Defendant

Fidelity Information Setryices, LLC
formerly lvtown as

represented

by James E. Heffner
(See above for address)
ATTORNEY TO BE NOTICED

Fidelity Information Services, Inc.

Defendant
Kevin R McCarthY

represented

by Kristin A Schuler-Hintz
(See above for address)

LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Detendant
Cooper Castle' LLP
DJ:fendant
Stephanie Cooper Herdman
TEHMINATED : 02/2 5/20 I 6

Defendant
Caleb Langsdale
TERMINATED : 02/25/2 0 I 6

Defendant
Nancy Rhody
TERMINATED : 02/2 5/20 I 6
Defenda+t
US National Bank
TEHMINATED : 03/ I 7/2 0 I 4

represented

by Chelsea Crowton
(See above for address)

TERMINATED : 08/ I 3 /2 0 I 4

Dana Jonathon Nitz
(See above for address)
ATTORNEY TO BE NOTICED

V.
Respondent

Mitchell Posin
Respondent on Order to Show Cause

represented

by Mitchell L Posin
(See above for address)
ATTOENEY TO BE NOTICED

httns://ecf.nvd.ttscottrts.sov/csi-bin/T)ktRnt.nl?102364100510338-L

1

1-1

9/412017

vage

UM/bUI' - nvd - Ulstnct Verslon O.l

IloI ly

V.
Consol Defendant

Earl and Eve Beutler FamilY Trust
TERMINATED : 02/25/20 I 6
CoJrsol Defendant

Bryce D. Beutler
Consol Defendant

LSI Title AgencY, Inc.
Consol Defendapt

Fidelity National Title ComPanY
Consol Defendant
represented

Patrick Pittman

by Stacy H. Rubin
(See above for address)

LEAD ATTONUEY
ATTORNEY TO BE NOTICED
Chelsea Crowton
(See above for address)
TERMNATED: 05/10/2017
ATTOKNEY TO BE NOTICED

Consol D efendant
represented

Julee Metters

by

StacY H. Rubin
(See above for address)

LEAD ATTORNEY
ATTOKNEY TO BE NOTICED
Chelsea Crowton
(See above for address)
TERMINATED : 0 5/ I 0/2 0 I 7
ATTOKNEY TO BE NOTICED

Date X'iled
0210312014

#

I

Docket Text
0978CO MPLAINT against All Defendants (Filing fee $400 receipt number
P arties due by
5 1 I 8 56 0 ), filed by Michael Harkey Certificate of Interested
# I Civil Cover
211 3120 I 4. Proof o servrce due by 61312 0 I 4 ( A ttachments
Sheet, # 2 Summons US Bank, # 3 Summons New Century, # 4 Summons
Executivi Trustee, # 5 Summons select Portfolio) (Posin, Mitchell) (Entered:

f

0210312014)
02103120r4

httns://ecf.nvd-rtscourts.sov/csi-bin/DktRot.ol?102364100510338-L

I

1-1

91412017

Page l'3 ot'19

CM/ECF - nvd - District Version 6'1

Case assigned to Judge Miranda
(MAJ) (Entered: 02103 12014)
0210312014

M. Du and Magistrate Judge George Foley, Jr'

with 28 USC
NOTI CE PURSUANT TO LOCAL RULE IB 2-2 In accordance
the
7 3 the parties ln this acti on are provided wl th a link to
$ 63 6( c) and FRCP
of
Exercise
il
AO 8 5 N otlce of Availability , Consent, and Order of Reference
we bsite
Jurisdiction by a U S Magistrate Judge" form on the Court' S
filed
www.nvd.uscourts. gov. Consent forms should NO T b e electronicallY
the form with
U pon cons ent of all parti €S, counsel are advised to manuall v file

2

the C lerk's Offrce.
recel vmg electronic
A copy of form AO 8 5 has been mailed to parties not
a
a ttached) (MAJ) (Entered 0210J 120 I 4 )
seruce. ( no im
^ge
New Cenfury
Summons Issued as to Executive Trustee Services,Inc.,
Bank re I complaint'
ruro.tgug. corp., Select Portfolio servicing, US National
(MAJ) (Entered: 02103 12014)

0210312014

J

0210412014

4

Miranda M. Du,
MINUTE o RD ER IN CHAMBERS of the Honorable Judge
This case has been assigned
on 2t4120 I 4 B v Deputy C lerk: Peggie V annozA.
I
Order 1S posted on
to the Honorable Miranda M. Du' Judge Du s Civil Standing
public website and may be accessed
the U.S. Distict Court, District of N evada
directly via this hYPerlink:
www.nvd.uscourts.gov

0212012014

0310312014

0311212014

to the NEF (no image attached) (CoPies have been distributed pursuant
PAV) (Entered: 021 0412014)
which
oRDER that Plaintiff shall file his Certificate as toa Interested Parties,
5
by
Signed
frrlly complies wittt LR 1 1 I no later than March 3 ) 2A 1 4.
been distributed
have
(
Copies
I
4
9120
Magistate Judge George F oley t Jr on 2lt
pursuant to the NEF S LR) (Entered: 02120120 I 4 )
Parti es filed by S elect Portfolio Servicing, US
6 CERTIFI CA TE of Interested
than those
N ational Bank. There are no known interested parties other
I4
participating ln the case ( Crowton, Chelsea) @ntered 03103120 )

7

counsel for
oRD ER for Certificate of Interested Parties. IT IS o RD ERED thatcomplies

tully
Plaintiff shall fi1e a Certificate as to Interested Parties which
Parties due by
with the provrslons of Local Rule 7 I 1 Certificate of Interested
George F oley ) Jr on 0 3ll 2120 I 4
3124120 I 4 Signed by Magistrate Judge
(Entered:
( Copies have been di stributed pursuant to the NEF A c)
0311212014)

0311712014

8

Trustee
AMENDED COMPLAINT with Jury Demand against Executive
Portfolio Servicing, US
Services, Inc., New Century Mortgage Cotp., Select
Trust 2007-6,
Backed
National Bank, U.S. Bank, N.A., CSM C Mortgage.

DLJ Mortgage
Credit Suisse First Boston Mortgage Securities Corporation,
Mortgage
Inc.,
Holdings,
Capital, Inc., Wells Fargo Bank, N.A., MerscorP
Loan Service
Electronic Registration SYstems, Inc. (MERS), QualitY
National
FidelitY
LLC,
Corporation, Black Knight Financial Services,
Shoua Moua, Bill
Financial lnc, jesse bewleY, JosePh N oel, Christina Allen,

tx^^.u^^€-r,,1 rro^^rrffc -n.,/noi-hin/T)lrtRnt 11110)?64100510338-T, 1

1-1

91412017

UM/.bUl - nvd - ljrstnct Verslon

yage 14 oL

6.1

tv

Koch, Kimberly Clark, Vanessa Gonzales, Michelle Nguyen, Safeguard
Properties, LLC, Adam Fenn, Earl Beutler, Eve Beutler, filed by Michael
Harkey. Adds new parties. Proof of service due by 711512014. (Posin, Mitchell)
(Entered: 0311712014)
ORDER TO SHOW CAUSE. Show Cause Response due by 411412014. Signed
by Magistate Judge George Foley, Jr on4l4l20l4. (Copies have been
distributed pursuant to the NEF - SLR) (Entered:0410412014)

04/04/2014

9

04t04/2014

l0

PROPOSED SUMMONS to be issued Adam Fenn, filed by Plaintiff Michael
Harkey. (Posin, Mitchell) (Entered : 04 I 04 /201 4)

04104/2014

il

PROPOSED SUMMONS to be issued Safeguard,filed by Plaintiff Michael
Harkey. (Posin, Mitchell) (Entered: 041 04 l20l 4)

04t0412014

t2 PROPOSED SUMMONS to be issued Nguyen,filed by PlaintiffMichael
Harkey. (Posin, Mitchell) (Entered: 0410412014)

a410412014

l3 pRoPosED suMMoNS to be issued clark, filed by Plaintiff Michael
Harkey. (Posin, Mitchell) (Entered:

04/0412014

04 /

04/201 4)

t4 PROPOSED SUMMONS to be issued Koch, filed by PlaintiffMichael Harkey.
@osin, Mitchell) (Entered: 04/0412014)

04/0412014

15

PROPOSED SUMMONS to be issued Moua, filed by Plaintiff Michael
Harkey. (Posin, Mitchell) (Entered: 0410412014)

04/0412014

16

PROPOSED SUMMONS to be issued Allen, filed by PlaintiffMichael Harkey.
@osin, Mitchell) @ntered: 04104/2014)

04/0412014

l1

PROPOSED SUMMONS to be issued QLS,filedby PlaintiffMichael Harkey
@osin, Mitchell) @ntered: 0410412014)

04/0412014

18

PROPOSED SUMMONS to be issued Noel,filed by PlaintiffMichael Harkey.
@osin, Mitchell) (Entered: 04/0412014)

0410412014

t9 pRoPosED SUMMONS to be issued Bewley,filed by Plaintiff Michael

\-

Harkey. (Posin, Mitchell) (Entered: 04/ 04

1201 4)

04104120t4

20

PROPOSED SUMMONS to be issued Fidelity,filed by PlaintiffMichael
Harkey. (Posin, Mitchell) (Entered: 04/04/2014)

0410412014

2l

pROPOSED SUMMONS to be issued Black Knight, filed by Plaintiff Michael
Harkey. (Posin, Mitchell) (Entered: 0410412014)

0410412014

22

PROPOSED SUMMONS to be issued Mers. Inc.,filedby PlaintiffMichael
Harkey. (Posin, Mitchell) (Entered: 04 I 04 120 1 4)

0410412014

23

PROPOSED SUMMONS to be issued Merscorp, filed by Plaintiff Michael
Harkey. (Posin, Mitchell) (Entered : 04/ 041201 4)

0410412014

24

PROPOSED SUMMONS to be issued SPE filed by Plaintiff Michael Harkey.
@osin, Mitchell) @ntered: 0410412014)

04104120t4

25

PROPOSED SUMMONS to be issued DLl,filedby Plaintiff Michael Harkey
(Posin, Mitchell) (Entered: 0410412014)

htrnc'//ecf nvd rrscorrrts.sov/csi-bin/DktRot.ol?102364100510338-L

1

1-1

91412017

Page I 5 oI'19

CM/ECF - nvd - District Verston 6.1

0410412014

26

Michael
PROPOSED SUMMONS to be issued credit suisse,filed by Plaintiff
Harkey. (Posin, Mitchell) (Entered: 041 041201 4)

0410412014

27

PROPOSED SUMMONS to be issued CSMC,filed by Plaintiff Michael
Harkey (Posin, Mitchell) (Entered: 0410412014)

0410412014

28

pRoPosED SUMMONS to be issued l(ells Fargo,filed by Plaintiff Michael
Harkey. (Posin, Mitchell) (Entered: 04 I 04 l20I 4)

0410412014

29

Michael
PROPOSED SUMMONS to be issued us Bank,filed by Plaintiff
Harkey. (Posin, Mitchell) (Entered: 04 I 04 1201 4)

0410412014

30

0410412014

31

Kni ght F inancial
Summons Issued AS to Christina Allen, Jesse Bewley ) Black
ly Clar k, Credit
-6,
Kimber
2007
Services, LLC, CSMC Mortgage Backed Trust
D LJ Mortgage Capi tal,
Suisse First B oston Mortgage S ecun ties Corporation,
Inc., Adam F enn, F idelity National F inancial Inc, Bill Koch, Merscorp
Inc (MERS), Shoua
Holdings, Inc., Mortgage Electronic Registration Systems,
Corporation,
Service
Moua, Michelle N guyen, Joseph Noel, Quali ty Loan
.S B ank, N .A. and
Safeguard Properties, LLC, Select P ortfolio S ervicing, U
Wells F argo Bank, N .A. (AsB) @ntered 04104120 1 4 )
by Plaintiff
PROPOSED SUMMONS tO bE issued earl and eve beutler, filed
Mitchell)
@ntered:
Michael Harkey. (Attachments: # I Summons)(Posin,
0410412014)

0410712014

32

0412s12014

JJ

0613012014

34

06130120t4

35

g Amended Complaint.
Summons Issued AS to Earl Beutler t Eve Beutler re
(Attachments: # I Summons)(RF .r) (Entered: 04107120 I 4)
There are no
CERTIFICATE of Interested Parties filed by Michael Harkey.
case . (Posin,
known interested parties other than those participating in the
Mitchell) (Entered: 04 125 12014)
P laintiff Michael
PR o PO SED SUMMONS to be issued U,S Bank, filed by
Credit Suisse,
2
Harkey (Attachments # Summons wells F ffgo, # Summons
#
# J Summons D LJ , # 4 Summons S afeguard, # 5 Summons QLS,
MERS Inc, # 2
Summons Fidelity ) # 7 Summons Merscorp, # 8 Summons
S # 1l Summons QLS 2, # l2
S lrlnmons Black Knight, # 10 Summons SP
# t4 Summons Allen, # 15 Summons
S ummons Bewley , # 13 Summons Noel,
.u
1+ l8 Summons Gonzales,
Moua, # 16 S tunmons Kioch, # t7 Summons Clark,
Summons EarI B eutler ) #
# l9 S rllnmons N guyen, # 20 Summons F enn, # 21
06130120 I 4 )
22 Summons Eve Beutler) (P osLn, Mitchell) (Entered:

I

I

Beutler ) Jesse
s ummons Issued as to Chri stina Allen, Ear I Beutler, Eve
Clar k, Credit Suisse
B ewley t Black Knight Financial S ervlces, LL C, Kimber ly
DLJ Mortgage Capital ) Inc.
First B oston M ortgage Securities Corporation,
B il I Koch,
Adam F enn, Fideli ty N ational Financial Inc, V anessa Gonzales,
Sy stems, Inc.
Merscorp Holdings, Inc. Mortgage Electronic Registration
Loan Service
(MERS), Shoua M oua, Michelle N guyen, Joseph N oel, Quality
Servicing, U .s. B ank,
Corporation, Safeguard Properties, LL C, Select Portfolio
attached on
N .A., and wells F argo B ank, N A. (ASB ) (Amended Summons
I 4 (RFJ).
7lt t2 0 I 4 J],t- I Summons ) (RFJ) (Attachment 1 replaced on 7 1 120 )
(Entered: 0613012014)

hftnc.//enf nvd rrsc.nrrrts.oov/csi-hin/T)ktRnt.nt?102364100510338-L

1 l-1

91412017

CM/ECF - nvd - District Version 6.1

Page 16 of 79

0710112014

36

PROPOSED SUMMONS to be issued, filed by Plaintiff Michael Harkey.
(Attachments: # 1 Summons QLS 3)(Posin, Mitchell) (Entered:0710112014)

07101120t4

37

Summons Issued as to CSMC Mortgage Backed Trust 2007-6 re 8 Amended
Complaint.

NOTICE to counsel SUMMONS as to Ouality Loan Service Corporation not
issued, summons for same party with same address was issued on 613012014,
see text entry 35 Summons Issued. (RFJ) (Entered: 0710112014)

07t07120t4

38

MOTION to Expunge Lis Pendens by Defendants CSMC Mortgage Backed
Trust 2007-6, Select Portfolio Servicing, U.S. Bank, N.A.. Responses due by
7 /24 120 1 4. (Crowton, Chelsea) (Entered : 07 I 07 1201 4)

07t0712014

39

MOTION to Dismiss by Defendants CSMC Mortgage Backed Trust 2007-6,
Select Portfolio Servicing, U.S. Bank, N.A.. Responses due by 712412014.
(Crowton, Chelsea) (Entered: 07 107 D0l4)

0710812014

40

REQUEST for Judicial Notice re 39 MOTION to Dismiss , 38 MOTION to
Expunge Lis Pendens ; by Defendants CSMC Mortgage Backed Trust 2007-6,
Select Portfolio Servicing, U.S. Bank, N.A.. (Attachments: # I Exhibit A,# 2
Exhibit B,# 3-Exhibit c, # 4Exhibit D E F G, # 5 Exhibit H I J, # 0 Exhibit K
M, # 7 Exhibit N)(Crowton, Chelsea) (Entered: 0710812014)

07n512014

4t

MOTION to Extend Time regarding dispositive matter (First Request) Motion
to Extend Time andfor Semice by Publicationby PlaintiffMichael Harkey.
Motion npe 7 I 1 5 /20 I 4. (Po sin, Mitchell) (Entered : 07 / I 5 120 1 4)

0711612014

42

SUMMONS Retumed Executed by Michael Harkey. Black Knight Financial
Services, LLC served on7lll2014, answer due7l22l2014; Credit Suisse First
Boston Mortgage Securities Corporation served on7/112014, answer due
7/2212014; DLJ Mortgage Capital, Inc. served on7ll/2014, answer due
712212014; Fidelity National Financial Inc served on7/112014, answer due
7 /221201 4; Merscorp Holdings, Inc. served on 7 I 1 /201 4, answer due 7 l22l20l 4 ;
Mortgage Electronic Registration Systems, Inc. (MERS) served on71112014,
answer due7122/2014; Safeguard Properties, LLC served on7l1l20l4, answer
due7l22l2014; Select Porffolio Servicing served on717/2014, answer due
712812014; U.S. Bank, N.A. served on7l8l20l4, answer due712912014. (Posin,
Mitchell) (Entered: 07 11 612014)

0711612014

43

DECLARATION re 41 MOTION to Extend Time regarding dispositive matter
(First Request) Motion to Extend Time andfor Service by Publication;
Declaration of Wendy Alison Nora with attached Declarations of Ben McKeeth
and Bart Santos by Plaintiff Michael Harkey. (Attachments: # 1 Declaration of
Investigator Ben McKeeth in Support of Motion to Extend Time to Serve
Process on Defendant Kimberly Clark, # 2Declaration of Investigator Bart
Santos in Support of Motion to Extend Time for Service or to Serve
Defendants Vanessa Gonzales and Michelle Nyugen by Publication)(Posin,
Mitchell) (Entered: 07 I 1 61201 4)

0711612014

44

ERROR: Attorney filed improperly aslbe filine says there are no interested
parties. Attornev Chelsea Crowton advise-d;lgJefile properly. (ASB)

Lttnc.//pnf nrrrl rrcnnrrrtc onrr/noi-hin/T)lrtRnt nl11O)76410051O??R-I . 1 1-l

9/4/2017

vagelloltv

CM/BCI"' - nvd - l)tstrtct Verston 6' I

(Entered
0711612014)
0111612014

45

0711612014

46

by Defendants
JOIND ER to 38 MOTI ON to Expunge Lis Pendens filed
D LJ Mortgage
Credit S ulsse First Boston Mortgage S ecurities Corporation,
N .A (Crowton,
Bank,
S.
U
Capital, Inc B I ll Koch, Select Portfolio Servicing,
Chelsea ) (Entered 07 l1 612 0 1 4 )
Suisse, DLJ, and
JOIND ER to 39 MOTI ON to D I smlss Defe ndants Credit
,s
the Amended
B ill Koch Joinder to the Mo tion to Dismiss with Prejudice
Securities
Mortgage
Complaint filed by De fendants Credit Suisse First Boston
Portfolio Servicing,
Corporation, D L J Mortgage Capital, I nc. ) Bill Koch, Select
I
4
U S Bank, N .A.. (Crowton, Chel sea) (En tered 07 6120 )

ll

0711612014

47

Parties.
NOTICE:AttorneyActionRequiredto44Certificate of Interested

without listing any of
ERROR: Attorney chelsea.crowton filed the document
the clerk's offrce has
the multipl" int.r.rt"l-pfiiffiE=* the PDF. As such,
terminated document # 44 .
refile the
ACTION REQUIRED: Attorney Chelsea Crowtonis,advised to
interested party'
Certificate of Interested parties and properly add each

with the proper entry of this document may be obtained by
contacting the Hetp Desk at (702) 464-5555'
Assistance

(no image attached)(AsB) @ntered: 07 11612014)
0711612014

48

0711712014

4e

0711712014

First Bo ston
CERTIFI CATE of Interested Parties fil ed by Credit Suisse
Inc Bill Koch,
Mortgage Securities Colporation, DLJ M ortgage Capital,
that identifies all parties that have
Select Portfolio Servicing, U .s. B ank, N .A.
P arent SPS Holding Corp.
an interest ln the ou tcome of this case. Corporate
Credit Suisse Group AG
Corporate P aren t Credi t Suisse AG ) Corporate Parent
for S elect Portfo lio
Corporate P arent Credi t Suisse Hol dings (usA ), Inc.
Corporate Parent Credi t
Servicing; Corporate Parent Credit Suisse (usA), Inc
A G Colporate P arent Credit
Suisse A G t Corporate Parent Credi t Suisse Group
Suisse Management,
Sui S se Holdings (u SA ) ) Inc. t Corpora te Parent Credit
tion added.
L LC for Credit Suisse First Bo ston Mortgage Securities Corpora
(Crowton, Chels ea) (Entered 01 I 1 6t20 I 4 )

re 8 Amended
SUMM ON S Returned Executed by Michael Harkey
answer due 8l 4120 I 4. (Posin,
Complaint,,, Eve B eutler served on 1 I 1 4120 1 4,
Mitche il) (Entered 07 l1 7 120 1 4 )
Harkey w ells Fargo Bank, N .A.
50 SUMMONS Returned Executed by Michael
(P osin, Mi tchell ) (Entered:
served on 1 1 sl20 1 4 answer due 8lsl20 1 4
0111112014)

0711112014

51

Loan Service
SUMMONS Returned Executed by Michael Harkey' Quality
14. (Posin, Mitchell)
Corporation served on 7 I 1 41201 4, answer dtte 8 I 4 120
(Entered: 0711712014)

httnc.//eef nvd rrse.orrrrs.sov/csi-bin/DktRot.ol?102364100510338-L

1 1-l

91412017

Page 18

CM/ECF - nvd - District Version 6.1

of79

0711812014

52

SUMMONS Retumed Executed by Michael Harkey. Jesse Bewley served on
7ll1l2014,answer due 8/1/2014; Adam Fenn served on711512014, answer due
81512014; Joseph Noel served on7ll5l2014, answer due 81512014. (Posin,
Mitchell) (Entered: 07 11812014)

0712012014

53

CERTIFICATE of Interested Parties filed by Michael Harkey. There ale no
known interested parties other than those participating in the case . (Posin,
Mitchell) (Entered: 07 l20l20l 4)

0712012014

54

RESPONSE TO ORDER TO SHOW CAUSE by Respondent Mitchell Posin
Order to Show Cause entered on April 4, 2014: RESPONDENT: Mitchell
Posin, Attorneyfor Plaintiff Michael Harkey. (Posin, Mitchell) (Entered:
07120120t4)

07121120t4

55

WITHDRAWN per Order 60 STIPULATION FOR EXTENSION

OF

TIME

(First Request) re 8 Amended Complaint,; (STIPULATION AND
FIRST
IPROPOSEDJ ORDER TO EXTEND TIME TO RESPOND TO THE
Services,
Financial
Black
Knight
Defendants
AMENDED COMPUIINT) by
LLC, Fidelity National Financial Inc. (Attachments: # Exhibit Proposed
Order)(Watkins, Marni) Modified on712312014 to withdraw per order #60
(DKJ). (Entered: 07 l2l 12014)

l

0712212014

56

WITHDRAWN per Order 60 ORDER ON STIPULATION Granting 55
STIPULATION FOR EXTENSION OF TIME to Respond to 8 Amended
Complaint. Black Ifuight Financial Services, LLC and Fidelity National
Financial Inc answer due 812112014. Signed by Magisfate Judge George
Foley, Jr on712212014. (Copies have been distributed pursuant to the NEF SLR) Modified on 712312014 to withdraw per order #60 (DKI). (Entered:
0712212014)

0712212014

57

ANSWER to 8 Amended Complaint,,, filed by Safeguard Properties, LLC.
Certificate of Interested Parties due by 81112014. Discovery Plan/Scheduling
Order due by 9 I 5 l20l .@urden, Jack) (Ente red: 07 1221201 4)

0112212014

58

STIPULATION FOR EXTENSION OF TIME (First Request) re 8 Amended
Complaint, ,,; (Stipulation to Extend Time For Defendants to Respond to the
Complaint and For a Briefing Schedule For Motions Filed by Certain
Defendants as Responsive Pleadings) by Defendants Black Knight Financial
Selices, LLC, Fidelity National Financial Inc. (Watkins, Marni) (Entered:
07122120t4)

07/2312014

59

MOTION to Withdraw 56 Order on Stipulation,, Sefieset Deadlines, 55
Stipulation, (Defendants Fidetity Nationol Financial, Inc. and Black Knight
Fiiancial Services, LLC's Motion to Withdraw Stipulation to Extend Time to
Answer Complaint [Docket No.: 55J) by Defendants Black Knight Financial
Services, LLC, Fidelity National Financial Inc. Motion ipe7l23l20t4.
(Watkins, Marni) (Entered: 07 123 1201 4)

0712312014

60

ORDER granting 59 Motion to Withdraw 56 Order on Stipulation to extend
time to answer complaint and 55 Stipulation. Documents 55 and 5..6 are
withdrawn and no longer effective. Signed by Magistrate Judge George Foley'

r-rr-^-

n^^c--.) --^^^.-r^ -^.,1^-: L:-/T\I,+D-+ ^1r1 nlaAA 1nn<1n??Q-T 1

1-1

9l4n017

Page 19

CM/ECF - nvd - District Version 6.1

Jr onll23l2014. (Copies have been distributed pursuant

ol79

to the NEF - DKJ)

(Entered: 0712312014)
Granting 58 S ti pulation to Extend Time F OI
Schedul e F or
a
Defendants to Respond to the Com plaint and F OI Briefing
due
Moti ons F iled by Certain Defendants AS Responsi ve Pleadings. Answer
1 4 Signed
1 0122120 I 4 Replies due by 1 I l3 0120
1 1 1312 0 I 4 Responses due by
been
4 (Copies have
by Magistrate Judge George F oley Jr on 1 l2 5 t20I
t23120 1 4 )
07
distributed pursuant to the NEF sLR) (Entered:

oRD ER ON S TIPULA TI ON

0712312014

61

0112312014

62

0713112014

63

Expunge Lis Pendens 46
FIRST MOTION to Extend Time re 38 MOTI ON to
Dismiss fi1ed by Plaintiff Michael Harkey
J o inder 45 Jo inder 39 MOTI ON to
of the N inth Circuit Court
Motion rlpe 712 3 120 1 4. (A ttachments: # I Opinion
of Appeals XPo sln, Mitchell ) (Entered 07 l2 3120 I 4 )
Noel.(SLR) (Entered:
ANSWER to 8 Amended Complaint, filed by Joseph

0s/01/2014)

08l0rn}t4

64

Pro Hac Vice by JAMES E
VERIFIED PETITI ON for Permission to Practice
MARNI RUB IN
HEFFNER and D ESI GN ATI ON of Local Counsel
5 J I 4 26) filed by
wATKINS (Filing fee $ 200 receipt number 097 8 -JFidelity
N ational Financial
LLC,
Defendants Black Kni ght Financial Services,
trn
c orrected age gg attached on
Inc Motion npe 8/l l2 0 I 4 (Watkins, Marni)
J). @ntered: 08/0 t12 0 I 4)
814120 I 4

aF

0810112014

65

0810t12014

66

\-

Pro Hac V rce by MIC}IAEL
VERIFIED PETITION for Permission to Practice
ON of Local Counsel MARNI R UBIN
J G LEAS ON and DESI GNA TI
J 3 3 1 4 3 2 ) filed by
WATKIN S (F iling fee $ 200 receipt num ber 0 97 8LLC, F idelity N ational Financial
Defendants Black Knigh t F inancial Services,
rm age 67 a ttached on
Inc Motion ripe 8l I 120 1 4 (Watkins, Marni) Corrected
8t4l20l4 cF J). (Entered 08/01 l2 0 1 4 )

PETITI ON for
NOTI CE: Attorney Action Required to 64 VERIFIED
E. HEFFNER and
Permission to Practice Pro Hac Vice by JAMES
IN w ATKINS (F iling fee $
D ESI GN A TI ON of Local Counsel MARNI RUB
by Defendants Black Ituight
20 0 receipt number 097 8- J 3 3 1 426) filed
PETITI ON for Permission to
Financial S ervrce S, LLC F idelity 6s VERIFIED
GLEASON and DESI GNA TI ON o f
Practice Pro Hac Vice by MI CHAEL J
(Filing fee s 200 recei pt num ber
Local Counsel MARNI RUBIN w A TKIN S
Black Knight Financial Services, LLc,.
0 978-3 J 3 1 4 32 ) filed by Defendants
leason are advised to provide answers
AttorneYs James Heffner and Michael G
nts and file, for each petition, a
in paragraphs 5, 6, 7 and 8 of the d ocume
under the Notices cate gory and
No tice of Corrected Image/Docume nt event
PETITI ON for Permission to
link to the appropna te petition: 64 VERIFIED
and or 65 VERIFIED
Practice Pro Hac Vice by JAMES E HEFFNER
Vice by MI CHAEL J
PETITI ON for Permission to Practice Pro Hac
Knight Financial Services, LLC etal.
G LEASON filed by Defendants Black
I4
(no lm l ge attached)(P AV) (Entered 0 8/0 I t20 )

08/0112014

L+-..//-^f

67

65 VEzuFIED PETITION for
NOTICE of Corrected ImagelDocument re
J. GLEASON and
Permission to Practice Pro Hac Vice bY MICHAEL
WATKINS (Filing fee $
DESIGNATI ON of Local Counsel MARNI RUBIN

r,ll'l0).1641005
-.,2t rrcnnrrrrc .n.r/noi-hin/T)lrtRnt

10338-L 1 1-l

91412017

y^ge'lu oI

UM/.bUt' - nvd - ljtstrlct Verslon 6.1

19

Ifuight
200 receipt number 0978-3331432) filed by Defendants Black
Financial Services, LLC, Fideli by Defendants Black Knight Financial
conected image is
Services, LLC, FidelitY National Financial Inc' (Service of
attached). (Watkins, Marni) (Entered: 0810112014)
0810112014

081a312014

68

69

NOTI CE of Corrected Image/Docum ent re 64 VERIFIED PETITI ON for
and
Permissio n to Practice Pro Hac V 1Ce by JAMES E. HEFFNER
(Filing fee
WATKINS
DESI GNATION of Local Counsel MARM RUBIN
200 recel pt number 097 8 -3 JJ I 4 26) filed by Defendants Black Ituieht
Financial Service S LLC, F idelity by D efendants Black Ituight Financial
image
Service S LLC) F idelity N ational Financial Inc (Service of corrected
attached) (w atkins, Marni) (Entered 08/0 1 120 1 4)

$

IS

c
DECLARA TI ON of Wendy A lison Nora RE: Default ofMortgage EIectroni
Form
Default
and
Regis ffation Sysf e ffiS' In c. and MERSCORP Holdings, Inc.
Michael
Signature of C lerk of the United States District Court by Plaintiff
(Entered:
Harkey (Attachments # 1 Proposed Order) (Posin, Mitchell )
0810312014)

08/0312014

70

0810412014

71

08/0s120t4

72

\-

08105120t4

Pro Hac
RESPON SE to 65 VERIFIED PE TITI ON for Permi s10n to Practice
V lCe by MI CHAEL J GLEASON and DESI GNATI ON of Local Counsel
J J 1 4 3 2)
MARNI RUBIN WA TKINS (Filing fee $ 200 receipt number 0978-3
64
frled by Defendants Black Knight Financial Services, LLC Fideli,
JAMES E.
by
V
ice
VERIFIED PETITI ON for Permission to Practice Pro Hac
}IEFFNER and DE SI GNATI ON of Local Counsel MARNI RUBIN
wATKINS (Filing fee $ 200 receipt num ber 0978-3 J 3 I 426) filed by
filed by
Defendants B lack Knight Financial Services, LL C, F idelity ,
and Certifcate
Respondent Mitchell Posin. Verified Response, Memorandum
ofService Replies due by 8/t 3120 I 4 (Posin, Mitche lu) @ntered: 0 8103120 I 4 )

Motion to Extend Time and for Service by Publi cation.
process.
Plaintiff shall have until September 4 , 20 1 4 to c omplete service of
have been
(Copies
4
I
4120
Si gned by Magistrate Judge George F oley , Jr on 8l
distributed pursuant to the NEF sLR) (Entered 08104120I 4 )

oRD ER Granting 41

Trust
CERTIFICATE of Interested Parties filed by CSMC Mortgage Backed
Securities
2007 -6, Kim berly Clark, Credit Suisse First B oston Mortgage
Holdings, Inc
Merscorp
Corporation, D LJ Mortgage Capital, Inc ., B ill Koch,
Porlfolio
Mortgage Electronic Registation Systems, Inc. (MERS) Select
an
interest in the
have
parties
that
Servicing U .S B Bnk, N .A. that identifies all
Registrati on Service,
outcome of this case. Other Affiliate Mortgage Elecfonic
Corp
Holding
.Inc for Merscorp Holdings, Inc Corporate Parent S PS
o Servicing ,
Corporate Parent Credit S ulsse (usA) Inc. for Select Portfoli
B
oston Mortgage
irst
F
Suisse
Corporate Parent S PS Holding Corp for Credit
for D LJ
Securities Corporation Corporate Parent S elect Portfolio Servicing
Inc. for
Mortgage cap Ital, Inc , Corporate Parent Merscorp Ho ldings,
(MERS) added. (Crowton,
Mortgage Electronic Re gistratton Systems, Inc.
Chelse a) (Entered 0 8t05120 1 4 )
filed bY Defendants
73 JOINDER to 38 MOTION to ExPunge Lis Pendens ;
Suisse First
CSMC Mortgage Backed Trust 2007-6, Kimberly Clark, Credit
Bill
CaPital,Inc.,
Boston Mortgage Securities Corporation, DLJ Mortgage

httns://ecf.nvd.uscourls.sov/csi-bin/DktRot.ol?102364100510338-L

11-1

91412017

CM/ECF - nvd - District Version 6.1

Page2l of79

Koch, Merscorp Holdings, Inc., Mortgage Electronic Registration Systems,
Inc. (MERS), Select Portfolio Servicing, U.S. Bank, N.A.. (Crowton, Chelsea)
(Entered: 0810512014)

a8l0s/20r4

74

JOINDER to 39 MOTION to Dismiss ; filed by Defendants CSMC Morlgage
Backed Trust 2007-6, Kimberly Clark, Credit Suisse First Boston Mortgage
Securities Coqporation, DLJ Mortgage Capital, Inc., Bill Koch, Merscorp
Holdings,Inc., Mortgage Electronic Registration Systems, Inc. (MERS), Select
Portfolio Servicing, U.S. Bank, N.A.. (Crowton, Chelsea) (Entered:
0810s12014)

08/06/20t4

75

08106/2014

76

PROPOSED SUMMONS to be issued/or publication in California--Califurnia
format,filed by Plaintiff Michael Harkey. (Posin, Mitchell) (Entered:
08/0612014)

!!f Order. (SLR
Pinaneiat lne, (UlatUins
STRICKEN per

ie*s
(Entered:

08/06t2014)
08106/2014

77

DECLARATION re 76 Reply ti 64 and 65 Verified Petitions by Defendants
Black Knight Financial Services, LLC, Fidelity National Financial Inc.
(Watkins, Marni) Linked to motions. (ASB) (Entered: 0810612014)

08106120t4

78

STRICKEN per!!S Order. (SLR
65 Verified Petitiens
(.Entered: 08/06/20 I 4)

0810712014

79

NOTICE of Intent to File Motionfor Leave to Surreply (or Formal Objection
to Motions for Admission Pro Hac Vice) by Michael Harkey re 76 Reply Other, 77 Declaration, T8 Declaration. @osin, Mitchell) (Entered: 08107/2014)

08107/20t4

80

DECLARATION of l{endy Alison Nora RE: Default of Mortgage Electronic
Registration Systems, Inc. and MERSCORP Holdings, Inc. and Default Form
for Signature of Clerk of the United States District Court by Plaintiff Michael
Harkey. (Attachments: # I Proposed Order)@osin, Mitchell) (Entered:
08t07/20t4)

0810712014

81

NOTICE: Attorney Action Required to

80 DECLARATION. ERROR:

Motion not filed in accordance with FRCP 55. CORRECTION: Attorney
Mitchell Posin advised to re-file documents as outlined in FRCP 55, to include
Motion/Request pleading and Affidavit/Declaration of Service and Courts
Default form using the "MOTION for Entry of Clerk's Default" event under the
"Motions" category as a new event. (no image attached)(AsB) (Entered:
08107t2014)
0811112014

82

08111t2014

83

SUMMONS Returned Executed by Michael Harkey re 8 Amended
Complaint,,,. Earl Beutler served on711412014, answer due 81412014. (Posin,
Mitchell) (Entered: 081 I 1 nAU)

h+tnc.//pnf nrrrl rrcnnrrr-tc onv/eoi-hin/DlrtRnt n12'lO)76410051033R-L

'l l-1

91412011

CM/ECF - nvd - District Version

08/

ll 120I 4

6'l

yage 22

or /9

PETITIONS fOT
MOTION to File SunePlY rez 64 and f! VERIFIED
Michael HarkeY
Permission to Practice Pro Hac Vice;filed by Plaintiff
(Entered: 081 It 12014)
Response s due by 812812014. (Posin, Mitchell )
t Plaintiff Mi chael Harkey Motion npe
84 M o TI ON for Entry of Clerks Defaul by
Adam F enn; Exhib I t B
8l I I 120 I 4. (Attachments # 1 Exhibit A: E- mail from
Alison N ora, 1t 3 D eclaration
Reply to Adam F enn, It 2 Dec laration of w endy
a
a
1+ 6 Declaration
of wendy Alison Nora, It 4 Declaration of w endy Alison N ora,
# 8 Proposed o rder ) # t0
o f w end v Alison N ora, # 7 Proposed Order,
osin, Mi tchell) (Entered:
Proposed Ord er # l1 P roposed Order, N .A. XP

08ltrl20t4)

08lltl20t4

85

0811212014

86

081t212014

0811212014

Execu ted; filed by
MOTI ON to withdraw re: 82 SUMMO N s Returned
#
Plaintiff Michael Harkey Motion ripe 8l 1 I 120 I 4 (Attachments
A Declaration of Bart Santos)
Declaration of w endy Alison N ora and Exhibi t
(Po sin, Mitchell) (Entered : 081 | I 12014)
shall file its Certificate as
ORDER that Defendant Safeguard Properties, LLC
LR 7.1-l no later than August
to Interested Parties, which fully complies with

I

to the NEF - SLR) (Entered:
21,2014. (Copies have been distributed pursuant
081r2120r4)
the Honorable Chief Judge Glori a M.
87 MINUTE o RDER IN CHAMBERS of
IS reassigned to Judge
N avalTo, on 8l I 2l2A I 4 IT IS o RDERED that this case
Judge Miranda M. Du no
Richard F Boul ware, il for all further proceedings.
must bear the correct case
longer assl gned to case. All further documents
.RFB.GWF (no image attac hed) (Copies have been
number 2 1 4-cv-00 1 77
08/l 2120 I 4)
distributed pursuant to the NEF EDS ) (Entered
Defendants Merscoqp Holdings, Inc.,
88 M OTI ON to S ubstitute AttomeY by
Inc. (MERS) Motion npe
Mortgage Electronic Registati on Sy stems
08/ I 2120 I 4)
8/1 2120 I 4. ( Stutrnan, Erica) @ntered

081t2120r4

89

08112120t4

90

08lr2l2aw

9r

0811212014

92

0811212014

93

Pendens ) filed by Defendants
RESPON SE to 38 M OTI ON to Expunge Lis
Joinder Replies due by
V anessa Gonzales, Quality Loan Service Corporation.
(Entered 08/I 2120 1 4)
8122120 I 4, ( Schuler- Hintz, I(ristin)
filed by Defendants V anessa Gonzales,
J OIND ER to 39 MOTION to Dismiss t
(Schuler-Hintz, Kristin) (Entered
Quality Loan S ervice Corporation.
081t2120t4)
ks Defaul t filed by Defendants
RESPON SE to 84 M OTI ON for Entry of C ler
F inancial Services , LLC Fidelity
Ear I Beutler ) E ve Beutler B lack Knight
Eve Beutler and Earl Beutl er
N ational Financial Inc (Special Appearance of
Entry of Default IDoc. No. 84l)
and Opposition to PIaintiffs Motion For
Marni ) (Entered 08/ I 2120 I 4 )
Replies due by 8122120 1 4 (w atkins,

,^t+no.iloo€n,,rt rrcnnrrrfc

V anessa Gonzales, Quali ty Lo an
CERTIFI CATE of Interested Parties fi1ed by
interested parhes other than those
Service Corporati on. There are no known
(Entered 0 8lr2120 I 4 )
participating 1n the case (Schuler-Hintz, Kristin )

.n.r/noi-hin/T)ktRnt n1110?.7641005 10338-L I i-l

91412017

CMIECF - nvd - District Version 6.1

Page

23 ot'/9

CERTIFICATE of Interested Parties filed by Michelle Nguyen. There are no
known interested parties other than those participating in the case . (SchulerFlintz, Kristin) (Entered: 0811212014)
08112120t4

94

JOINDER to 39 MOTION to Dismiss filed by Defendant Michelle Nguyen.
(Schuler-Hintz, Kristin) Linked to motion. (ASB) (Entered: 08112/2014)

08/t3120t4

9s

Clerk's ENTRY OF DEFAULT as to Christina Allen, Earl Beutlet, Eve
Beutler, Adam Fenn, Merscorp Holdings, Inc., Mortgage Electronic
Registration Systems, Inc. (MERS), Shoua Moua, Quality Loan Service
Corporation, Wells Fargo Bank, N.A. re 84 MOTION for Entry of Clerks
Default . (SLR) (Entered: 081 13/201 4)

08113/20t4

96

CERTIFICATE of Interested Parties filed by Wells Fargo Bank, N.A. that
identifies all parties that have an interest in the outcome of this case. Corporate
Parent Wells Fargo & Company for Wells Fargo Bank, N.A. added. .
(Crowton, Chelsea) (Entered: 081 13 1201 4)

08n312014

97

of Default, against Wells Fargo Banh
N.A. by Defendant Wells Fargo Bank, N.A.. Responses due by 813012014.
(Attachments: # I Exhibit A,#2 Exhibit B)(Crowton, Chelsea) (Entered:

MOTION to

Set Aside 95 Clerk's Entry

08tnDaru)
08/t3t20t4

98

ORDER Granting 88 Motion to Substitute Snell & Wilmer, L.L.P. in place and
stead of Wright, Finlay & Zak, LLP as to Defendants MERSCORP Holdings,
Inc. and Mortgage Electronic Registration Systems, Inc. Signed by Magistrate
Judge George Foley, Jr on8/1212014. (Copies have been distibuted pursuant
to the NEF - SLR) (Entercd:0811312014)

081t312014

99

ORDER Granting 85 Motion to Withdraw 82 Summons Retumed Executed.
Signed by Magistrate Judge George Foley, Jr on8/13/2014. (Copies have been
distributed pursuant to the NEF - SLR) (Entered: 08/13/2014)

08lt3njt4

100

SUMMONS Returned Executed by Michael Harkey re 8 Amended
Complaint,,,. Christina Allen served on7ll5/2014, answer due 81512014.
(Posin, Mitchell) @ntered: 0811312014)

08113/20t4

101

SUMMONS Returned Executed by Michael Harkey re 8 Amended
Complaint,,,. Shoua Moua served on7/15/2014, answer due8l5l20l4.
(Attachments: # I Exhibit A: Shoua Moua Service of Process by Mail Receipt
Dated July 22, 20 1 4)(Posin, Mitchell) (Entered: 08 I 13 l20l 4)

08113120t4

and 65 VERIFIED
102 RESPONSE to MOTION to File Suneply re:
Pro
Vice, filed by Defendants
to
Practice
Hac
PETITIONS for Permission
Black Knight Financial Services, LLC, Fidelity National Financial Inc. Replies
due by 8123/2014. (Watkins, Marni) Removed duplicate w.prding. (ASB)
(Entered: 08113/2}ru)

0811312014

103

08/1312014

104

\-

f!

MOTION to Withdraw 95 Clerk's Entry of Default, and Correct Clerk's Entry
of Default (attached) by PlaintiffMichael Harkey. Motion npe8113/2014.
(Attachments: # 1 Proposed Order Corrected Clerk's Entry of Default)(Posin,
Mitchell) Conected Image 113 filed on 8/16/14. (ASB) (Entered: 08/1312014)

l*no.lloo€ n',r{ rrcnnrrr{o on.'/nci-hin/T)ktRnf nll1O)?54"10051033R-T. I l-1

91412017

Page'24 oL 19

CM/ECF - nvd - District Version 6'1

95 Clerk's
Submission of PROPOSED ORDER on 103 MOTION to Withdraw
filed by
Entry of Default, and Correct Clerk's Entry of Default (attached) ;
Plaintiff Michael Harkey . (Posin, Mi tchell) (Entered: 081 13 12014)
0811312014

105

M OTI ON to S et Aside

95 Clerk's Entry

of Defaul t, by Defendants Merscorp

Inc. (MERS).
Hold D8S, Inc., Mortgage Electro nlc Registra tlon Systems,
# Exhi bit B )
Responses due by 813 0120 1 4 (Attachments: # Exhi bit A, z
( Stutman, Erica) (Entered: 0 8l 1 3120 1 4 )

I

08lt4D0r4

106

0811412014

107

08114120t4

108

NOTICE of APPearance; filed bY Christina Allen, Earl Beutler, Eve Beutler'
Black Ifuight Financial Services, LLC, Fidelity National Financial Inc.
(Wa&ins, Marni) (Entered: 08 I 14 l20l 4)
CERTIFICATE of Interested Parties filed by Safeguard Properties, LLC' There
in the case '
are no known interested parties other than those participating
(Burden, Jack) (Ente rcd 081 14 l20I 4)
Eve
RESPONSE to Notices of Special Appearancefiled by Earl Beutler,
Plaintiff
Beutler and Christina Sihwarting, iirmerly Christina Allen filed by
Attorney
Unadmittted
Michael Harkey. (Attachments: # Exhibit A: E-mail of
James E. Hefftier to Plaintiffs Counsel)@osin, Mitchell) @ntered:0811412014)

l

08115n014

0811512014

081ts12014

by
MOTION to Set Aside (Notice of Motion and Motion to Set Aside Default)
LLC,
Defendants Earl Beutler, Eve B eutler, Black Knight Financial Services,
(Watkins,
Marni)
Fidelity National Financial Inc. Responses due by 9lll20t4.
(Entered: 08/1512014)
and Motion
110 DECLARATION re 109 MOTION to Set Aside Q'lotice of Motion
to Se:t Aside Default) ; (Declaration of Michaet J. Gleason in Support of Eve
Beutler's Motion to Set Aside Default) by Defendants Earl Beutler, Eve
gruttr., Black Knight Financial services, LLC, Fidelity National Financial lnc
(Watkins, Marni) @ntered: 081 | 5 l20l 4)
to Set Aside (Notice of
111 DECLARATION of James E. Heffner re 109 MOTION
Motion
Motion and Motion to Set Aside Defautt) ; in Support of Eve Buetler's
to Set Aside Defautt by DefendantsEarl Beutler, Eve Beutler, Black Ifuight
Financial Services, LLC, Fidelity National Financial Inc. (Watkins, Marni)

109

@ntered: 08115/2014)

MEMORANDUM of Points and Authorities in Support of Eve Beutler's
Motion to Set Aside Default filed by Defendants Earl Beutler, Eve Beutler,
RE 1-09
Black Knight Financiai services, LLC, Fidelity National Financial Inc
MOTION io Set Aside (Notice of Motion and Motion to Set Aside Default).
(w atkins, Marni) (Entered: 08/1512014)
N OTICE of C orrected Image/Doc ument re 103 M OTI ON to withdra w 95
(attached) by
Clerk's Entry of Default, and Correct Cler k's Entry of Default
(Posin,
Plaintiff Michael Harkey. (Service of corrected lmage ls attached).
Mitchell) (Entered: 0811 612014)

0811512014

tt2

0811612014

113

0811812014

1r4 SUMMONS Retumed Executed by Michael Harkey re 8 Amended
Complaint,,,. (Posin, Mitchell) (Entered: 08/ 18 1201 4)

0812912014

115

httns://ecf.nvrl"uscorrrt.s.sov/csi-bin/DktRnt.n12102364100510338-L

1

I -1

914/2017

Page25 of79

CM/ECF - nvd - District Version 6.1

NOTICE of Intent to File Motion to Strike Untimely Joinder of Defaulted
Defendant Quality Loan Service Corporationby Michael Harkey re 89
Response to Motion, 90 Joinder. (Posin, Mitchell) (Entered: 0812912014)
08t29120r4

116

SERVICE by Publication filed by Plaintiff Michael Harkey. Last publication
date 8 129 120 1 4. (Posin, Mitchell) (Entered : 08 129 1201 4)

08130120t4

117

MOTION to Strike 76 Reply - Other, 110 Declaration, Tl2 Memorandum, 91
Response to Motion, 111 Declaration, 55 Stipulation,lJ Declaration, 78
Declaration, 109 MOTION to Set Aside Default, 106 Notice (Other),58
Stipulation, 102 Response to Motion, 59 MOTION to Withdraw 56 Order on
Stipulation,, Set/Reset Deadlines, 55 Stipulation, (Defendants Fidelity National
Financial, Inc. and Black Knight Financial Services, LLC's Motion to
Withdraw Stipulation to Extend Time to Answer Compl andfor Order to Show
Cause for Contempt, Sanctions and Discipline by Plaintiff Michael Harkey.
Responses due by 9/16/2014. (Attachmenls: # I Exhibit A, B, and C)(Posin,
Mitchell) (Entered: 08/3 0/2 0 I 4)

08t30/20t4

ll8

MOTION to Strike I l0 Declaration, 112 Memorandum, 9l Response to
Motion, I I I Declaration, 109 MOTION to Set Aside Default Evasions of and
Violations of LR 1A l0-2 and LR A I0-7 by PlaintiffMichael Harkey.
Responses due by 9/16/2014. (Posin, Mitchell) (Entered: 0813012014)

08130/20r4

1r9

RESPONSE to 105 MOTION to Set Aside 95 Clerk's Entry of Default,, filed
by PlaintiffMichael Harkey. Replies due by 91912014. (Attachments: # I
Exhibit A, B, C, D, E, and F)(Posin, Mitchell) (Entered:0813012014)

08130/20t4

t20 RESPONSETo

97 MOTION to Set Aside 95 Clerk's Entry of Default, against
Wells Fargo Banlc, N.A.,filed by PlaintiffMichael Harkey. Replies due by
9/912014. (Attachments: # I Exhibit A, B, C, D, E, and F)@osin, Mitchelf

(Entered: 0813012014)
08/30t2014

12r RESPONSE to 109 MOTION to Set Aside Default, filed by PlaintiffMichael
Harkey. Replies due by 91912014. @osin, Mitchell) @ntered: 0813012014)

09/0v20t4

t22

MOTION to Strike 90 Joinder of Quality Loan Service Corporation to Motion
Pendens (Doc. 38) as Untimely and in
of
Violation Local Rules and Fed. R. Civ. P. 55(c) and Requestfor
Consideration of Sanctions pursuant to Fed. R. Civ. P. 1I(c)(3) by Plaintiff
Michael Harkey. Responses due by 911812014. (Attachments: # I Exhibit A, B,
C, D, E, and F)(Posin, Mitchell) (Entered:09/0112014)

to Dismiss (Doc. 39) and to Expunge Lis

09/0U2014

123

Amended MOTION to Amend/Correct 76 Reply - Other, I l0 Declaration, Tl2
Memorandum,
Response to Motion, 111 Declaration, 55 Stipulation,TJ.
Declaration, 78 Declaration, 109 MOTION to Set Aside Default, 106 Notice
(Other), 58 Stipulation, 102 Response to Motion,. to Correct
Typographical/Formatting Enors by Plaintiff Michael Harkey. Responses due
by 911812014. (Attachments: # 1 Exhibit A, B, and C)@osin, Mitchell)
(Entered: 09/0112014)

!!

09/01/2014

124

RESPONSE to 105 MOTION to Set Aside 95 Clerk's Entry of Default, , filed
by Plaintiff Michael Harkey. AMENDED to Correct Typographical Enors

httnc'//ecf nvd rrccnrrrtc onrr/eoi-hin/T)lrtRnt n121O)2,6410051n??R-T 1

1-1

q/a/)n1't

Yage'2b

CM/ECF - nvd - District Version 6.1

Replies due by 911112014. (Attachments: #
(Posin, Mitchell) (Entered: 09 101 1201 4)
09t0112014

125

oI /9

I Exhibit A, B, C, D, E, and F)

RESPONSE to 109 MOTION to Set Aside Default, filed by Plaintiff Michael
Harkey. AMENDED RE: Eve Beutler Motion to Set Aside Default/Notices of
Special Appearance RE: Eve Beutler, Earl Beutler, and Christina Schwarting
(ormerly known as Christina Allen) to Conect Typographical Errors and
Modify Paragraph 28 Replies due by 911112014. (Posin, Mitchell) (Entered:

09t01t2014)
0910U2014

126 Amended MOTION to Strike 9l Response to Motion, i09 MOTION to Set
Aside Default, 106 Notice (Other) to Correct Typographicsl Errors and
Modify Paragraph 28by Plaintiff Michael Harkey. Responses due by
9 / 18 120 I 4. (Posin, Mitchell) (Entered : 09 I 0l 120 1 4)

0910212014

127 VERIFIED PETITION for Permission to Practice Pro Hac Vice by Michael J.
Gleason and DESIGNATION of Local Counsel Marni Rubin Watkins (Filing
fee $ 200 receipt number 0978-3371624) filed by Defendants Earl Beutler, Eve
Beutler. Motion ipe9l2l2014. (Watkins, Mami) Conected Imase 136.fiIed on
9/3/1 4. (ASB) (Entered: 09 l02l20l 4)

09/0212014

128 VERIFIED PETITION for Permission to Practice Pro Hac Vice by James E.
Heffner and DESIGNATION of Local Counsel Marni Rubin Watkins (Filing
fee $ 200 receipt number 0978-3371638) filed by Defendants Earl Beutler, Eve
Beutler. Motion ipe9l2l20l4. (Watkins, Marni) Conected Imase 134 filed on
9/3/l 4. (ASB) (Entered: 09 10212014)

0910212014

129

VERIFIED PETITION for Permission to Practice Pro Hac Vice by Michael J.
Gleason and DESIGNATION of Local Counsel Marni Rubin Watkins (Filing
fee $ 200 receipt number 0978-3371645) filed by Defendant Christina Allen.
Motion npe 91212014. (Watkins, Marni) Conected Imaee 135 filed on 9/3/14.
(ASB) (Entered: 09 10212014)

0910212014

130

VERIFIED PETITION for Permission to Practice Pro Hac Vice by James E.
Heffrrer and DESIGNATION of Local Counsel Mami Rubin Watkins (Filing
fee $ 200 receipt number 0978-3371653) filed by Defendant Christina Allen .
Motion npe9l2l2014. (Watkins, Marni) Conected Image 133 filed on 9/31J4.
(ASB) @ntered: 09 I 021201 4)

0910312014

131

MOTION to Stay re 57 Answer to Amended complairfi Motion to stay
Computer-Generated Rule 26(fl Deadline for reasons set forth in the Motion to
Stayby Plaintiff Michael Harkey. Motion npe91312014. (Posin, Mitchell)
(Entered: 0910312014)

0910312014

132 RESPONSE to 128 VERIFIED PETITION for Permission tO PTACIiCE PrO HAC
Vice by James E. Heffirer and DESIGNATION of Local Counsel Marni Rubin
Watkins (Filing fee $ 200 receipt number 0975-3371638) filed by Defendants
Earl Beutler, Eve Beutler, 127 VERIFIED PETITION for Permission to
Practice Pro Hac Vice by Michael J. Gleason and DESIGNATION of Local
Counsel Marni Rubin Watkins (Filing fee $ 200 receipt number 0978-3371624)
filed by Defendants Earl Beutler, Eve Beutler, 129 VERIFIED PETITION for
Permission to Practice Pro Hac Vice by Michael J. Gleason and

h++nc.//cnf nrrd rrccnrrrfc onw/e.si-hin/T)ktRnt n121O)7641 005

103i8-L 1

1-1

91412017

Page'2'l oI'19

CM/ECF - nvd - District Version 6.1

DESIGNATION of Local Counsel Mami Rubin Watkins (Filing fee $ 200
130
receipt number 0978-3371645) filed by Defendant Christina Allen ,
Vpnlflg,O PETITION for Permission to Practice Pro Hac Vice by James E'
(Filing
Hefftrer and DESIGNATION of Local Counsel Marni Rubin Watkins
Allen
fee $ 200 receipt number 0978-3371653) filed by Defendant Christina
'
of
Vice
Petitions
Hac
tit"a ty Plaintiff Michael Harkey. opposition to Pro
Counsel
Michael J. Gleason and James b. A-tffirt, and Designation of Local
Christina
and
Beutler
Earl
Marni Rubin llatkins as counsel for Eve Beutler,
of this court yd-t!.e Nevada Rules of
schwartingfor
-r;ri?rrtniit violation of Locai Rules
Conduct Reities due by 911312014. (Posin, Mitchell) (Entered:
0910312014)
09103120t4

133

N o TI CE of Corrected Image/Document re I 3 0 VERIFIED PETITI ON for
DESI GNATI ON
Permission to Practice Pro Hac V lCe by James E. Heffner and
8of Local Counsel Mami Rubin w atkins (Filing fee $ 200 receipt number 097
Christina Allen.
J 3 7 I 65 J ) filed by Defendant Christina Allen by Defendant
(Entered:
(Service of corrected lmage is attached ). (w atkins, Marni)
09lo3l2ot4)

0910312014

\-

0910312014

PE TITI ON for
134 N OTICE of Corrected Image/Document re 128 VERIFIED
and DESI GNATI ON
Permission to Practice Pro Hac V 1Ce by Jame E. Heffrter
8of Lo cal Counsel Marni Rubin w atkins (Filing fee $ 200 receipt number 097
Defendants Earl
3371638) filed bY Defendants Ear I Beutler Eve Beutler by
(w atkins,
Beutler, Eve Beutler. (Service of corrected rmage is attached ).
Mami) (Entered: 09 I 03 l20l 4)
135

for
N OTICE of Corrected ImagelDocument re 129 VERIFIED PE TITI ON
Permission to Practice Pro Hac V lce by Michael J G leason and
(Filing fee $ 2 00
D ESIGN A TI ON of Local Counsel Marni Ru bin w atkins
Allen by
receipt number 0978-3371645) filed by Defendant Christina
(watkins,
attached)
is
Defendant Christina Allen' (Service of corrected lmage
Marni) (Entered:

0910312014

136

0910312014

r37

0910312014

09/0312014

09 103 12014)

ON for
N OTICE of Corrected Image/Document re 127. VERIFIED PETITI
and
Permission to Practice Pro Hac V 1Ce by Michael J G leason
(F
iling fee $ 200
w
atkins
DES I GNA TI ON of Local Counsel Marni Rubin
er Eve Beutler
receipt number 0978- 3^ 3 7 1 624 ) filed by D efendants Ear I Beutl
lmage rs
corrected
of
(s
ervlce
by Defendants EarI Beutler Eve B eutler
attached) (w atkins, Mami ) (Entered: 09103120I 4)

by James E,
VERIFIED PETITI ON for Permission to Practice Pro Hac V lCe
w atkins (F iling
Heffner and DESI GNA TION of Local Counsel Marni Rubin
Shoua Moua
fee $ 200 receipt number 0978-3 3 7 40 8 2 ) fi1ed by Defendant
4
Motion n pe 913120 i 4 (w atkins, M arni) (Entered: 09103120 1 )
Practice Pro Hac V lce by Michael J
138 VERIFIED PE TITI ON for Permission to
Local Counsel Marni Ru bin w atkins (Filing
Gleason and DE SI GNATI ON of
a
Defendant Shoua Moua
fee $ 200 receipt number 09 78-J 7 74096) fi1ed by
4
Motion npe 913 120 1 4 (w atkins, Marni ) (Entered 09103120 I )

r39

hfrns.//pnf nvrl rrscnrrrrs onv/coi-hin/DktRnt.nl?102364100510338-L

1

1-1

9/412017

rage /6 or tv

CM/EUI' - nvd - Dlstnct Verslon O.l

SUGGESTION OF BANKRUPTCY Upon the Record as to KimberlyE. Clark
(Defendant Kimberly Clark) by Plaintiff Michael Harkey (Posin, Mitchell)
(Entered: 0910312014)
0910312014

140

Second MOTION to Extend Time regarding dispositive matter (Second
Req uest) Moti on to Ext end Time to serve process on Defendant Kimb erly
a
CIar k, w ho ed a Chapter J Peti t I on on A ugus t 26, 20 4 (aut omatic stay t.t ln
effect) re 7l Order on Motion to Extend Time/Shorten Time regarding
Dispositive matter ) 139 s ugge stion o Bankruptcy by PI aintiff Michael Harkey
Moti on ripe 913120 I 4. (Posin, Mitche lu) (Entered 0910 312 0 1 4 )

l

fit

f

0910412014

0910412014

09/0512014

141

ORDER Granting 131 Plaintiffs Motion to Stay Discovery Plan. Discovery
Plan/Schedulingbider due by 101612014. Signed by Magistrate Judge George
Foley, h on9lil2014. (Copies have been distributed pursuant to the NEF
EDS) (Entered: 09104/2014)

Noel
142 Mail Returned as Undeliverable re 7l and 86. Orders addressed to Joseph
(SLR)
No New Address, Did Not Resend. (Attachments: # I Mail Returned)
(Entered: 0910512014)
143

ORDER Granting llg Motion to Extend Time to Serve Defendant Kimberly
Clark. Status Report due within 90 days. Signed by Magistrate Judge George
Foley, Jr on9l5l20l4. (Copies have been distributed pursuant to the NEF
SLR) (Entered: 09 I 05 l20l 4)

'

09/asD014

\-

t44 RESPONSE to 138 VERIFIED PETITI oN for Permis slon to Practice Pro Hac
Vice by Mi chael J Gleason and DESI GNATION of Local C ounsel Mami
Rubin watkins (Filing fee $ 2 00 receipt num ber 0978-3 3 7 40e6) filed by
Defendant Shoua Moua 137 VERIFIED PETITI ON for Permission to
Practice Pro Hac V lCe by James E. Heffrrer and D ESI GN ATI ON of Local
33 7 4 082)
Counsel Mami Rubin w atkins (Filing fee $ 200 receipt num ber 0978Replies
key
Har
filed by Defendant Shoua Moua filed by Plaintiff Michael
due by 9l 1 sl20 1 4. (Po sln, Mitchell) (Entered: 0910s120 I 4 )

0910512014

t45 SERVIC E by Publication filed by Plaintiff Michael Harkey Last publication
date 9l I /20 I 4 (Posin, Mitchell) (Entered 09t0s120 I 4 )

0910512014

t46 Mail Returned

0910812014

147

Undeliverable re 66 Notice:, addressed to Joseph No el. No
New Address, Did Not Resend. (sLR) (Entered: 0910812014)
as

Defendants
REPL Y to Response to 109 M OTI ON to Set A side Default filed by
Christina Allen, Ear I Beutler Eve Beutler B Iack Knight Financial Services,
LLC, Fidelity National Financial Inc, Shoua Moua. (Attachments: # 1
Declaration Heffner, # 2 Exhibit A, # 1 Exhi bi t B, # 4 Exhibit C)(Watkins,
Marni) (Entered: 09 /08 l20l 4)
2

0910812014

148

09t0912014

149

of
N OTI CE of Appearance by attorneY Patrick Gerard Byrne on behalf
Registration
Electronic
Defendants M ersco{p Holdings, Inc Mortgage
Systems, Inc (MERS ). (Byrne, Patrick) (Entered: 09/0 8120 I 4 )
of Default,
REPL Y to Response to 105 MOTI ON to S et Aside 95 Clerk' s Entry
Registation
filed by Defendants Merscorp Holdings, Inc., Mortgage Electronic
Sy stems, Inc. (MERS) (s tutman, Erica) (Entered 0910912 0 1 4 )

htrns.//cef nvd rse.orrrts.sov/csi-bin/DktRot.pl?102364100510338-L

1

1-1

91412017

Page29 oI'19

CMiECF - nvd - District Version 6'1

MOTION to Set Aside 95 Clerk's Entry of Default,
Fargo Bank, N'A
against Wells Fargo Bank, N.A. filedby Defendant Wells
(Crowton, Chelsea) (Entered: 09 109 12014)

0910912014

i50 REPLY to ResPonseto

0911012014

151

97

ernl SSI on to Practice
REPL Y to Response to 1 21 VERIFIED PETITI ON for P
ATI ON of Local Counsel
Pro Hac V ce by Michael J G leaso n and D ES I GN
8- JJ 7 1 624 ) fil ed by
Marni Rubin watkins (Fi ling fee $ 20 0 recel pt number 09 7
PETITI ON for
Defendants Earl Beutler Eve Beutler 128 VERIFIED
and DESI GN ATI ON
Permi SSION to Practi ce Pro Hac V lCe by J ames E. Heffirer
(Filing fee $ 2 00 receipt number 0978o Local Counsel Marni Rubin w atkins
E VE Beutl er 138 VERIFIED
J J 7 I 63 8) filed by Defendants Earl Beutler
Pro Hac V lce by Michael J G leason and
P ETITI ON for Permi ssion to Practice
(F iling fee $ 200
D ESI GN ATI ON of Local Counsel Marni Rubin w atkins
Moua 129
receipt number 097 8 -J J 7 409 6) filed by Defendant Shoua
V lCe by Mi chael J
Pro
Hac
VERIFIED PETITION for Permission to Practice
Marni Rubin watkins @iling
G leason and DESI GN ATI ON of Local Counsel
by Defendant Christina Allen
fee $ 200 recel pt number 0978- J J 7 1 64 5) filed
Pro Hac V lc e by J ames
137 VERIFIED PETITI ON for Permission to Practice
Marni Rubin Watkins
E Heffrrer and D ESI GN A TI ON of Local Counsel
Shoua
(Filing fee $ 200 recel pt number 09 78-33 74082) filed by Defendant
to Practice Pro Hac V ce by
Moua 130 VERIFIED PETITION for Permission
of Local Counsel Marni Rubin w atkins
J ames E Heffirer and D ESI GN ATION
Defendant Christina
(Filing fee $ 2 00 recel pt number 0978-3 J 7 1 65 J ) filed by
Beutler, Shoua
Allen fi led by Defendants Chri stina Allen, Ear I Beutler Eve
Marni) @ntered 09lr 0120 I 4)
Moua. (Attachments: # 1 Exhibit A-cxw atkins,
Order addressed to Joseph
r52 Mail Retumed as Undeliverable re t4l and 143
# I Mail Returned)
N oel. No N ew Address, Did Not Resend (A ttachments
(SLR) (Entered: 09 I 1 | l20l 4)

f

\-.

09lrll20r4

0911U20r4

153.

Strike 9l Response to Motion, 109
RESPONSE to 126 Amended MOTI ON to
TypograPhical
M OTI ON to Set Aside Default, 106 N otice ( Other) to Correct
to S trike 76 Reply Other
Errors and Modtfu Paragraph 2 B, tt7 MOTI ON
to Motio n, lll Declaration,
110 Declaration, rt2 Memorandum, 9.r Response
109 M OTI ON to Set Aside
55 Stipulation, 77 Declaration, 78 Declaration,
MOTI ON to Amend/Conect
Default, l_06. N otice (Other) 58 S r23 Amended
Declaration, 1t2 Memorandum, 9l Response to Motion,
76 Reply Other
ON
pulation, 77 Declaration, 78 Declara tion, 109 M OTI
l-11 Declaration, 55 sti
M OTI ON to Strike 90 Joinder of
to Set Aside Defaul t, 106 N otice (o, t22
on to Motion to Dism ls s (Doc. 3 e) and to
Quality Loan Semice Corpor0ti
and m Violat ton of Local Rules
Expunge Lis Pendens (Doc. 3 8) AS UntimelY
nsiderat rcn of Sancti,
and Fed. It. Civ. P 5 5 G) and Re quest for Co
Declaration, t12 Memorandum, 9I l? esponse to
MOTION to ,Sfr ke
MOTION to set As ide Default Evas ons of and
Motion, il1 Declaration,
led by Defendants Chr ,sr ma AI len,
Violat rcns of LR A 0- 2 and LR IA I 0- rt
LL C, Fide lity
Earl Be utler, Eve B eut ler, Black Kn ight Financial Services,
/20 I 4. (lT/at kins,
Financial Inc, Shoua Moua. It eplie .s due by 9/2

ll0

lu

il0

tu

National
Marni) (Entered: 09/ I I /20 I 4)

091rv2014

154

l

91 Response to Motion,l-0.9'
RESPONSETo 126 Amended MOTION to Strike
Coruect TYPograPhical
MOTION to Set Aside Default, 106 Notice (Other) to

L4-^. t t^^c ^"A rraanrrrfo ^^,,/nci-hin/T)lrtRnf n1210)76410051 03i8-I. 1 l -1

91412017

UM/bUl'' - nvd - Urstnct Versron

6.1

Page JU

oI

/Y

Errors and Modify Paragraph 28,117 MOTION to Strike 76 Reply - Other,
110 Declaration, 112 Memorandum, 91 Response to Motion, 111 Declaration,
55 Stipulation,TT Declaration, 78 Declaration, 109 MOTION to Set Aside
Default, 106 Notice (Other), 58 S, 122 MOTION to Strike 90 Joinder o/
Quality Loan Service Corporation to Motion to Dismiss (Doc. 39) and to
Expunge Lis Pendens (Doc. 38) as Untimely and in Violation of Local Rules
and Fed. R. Civ. P. 55(c) and Request for Consideration of Sancti, I I8
MOTION to Strike I I0 Declaration, I l2 Memorandum, 9l Response to
Motion, I I I Declaration, 109 MOTION to Set Aside Default Evasions of and
Violations of LR IA I0-2 and LR IA I0-7, filed by Defendants Christina Allen,
Earl Beutler, Eve Beutler, Black Knight Financial Services, LLC, Fidelity
National Financial Inc, Shoua Moua. (**AMENDED Opposition to Motion to
Strike Documents -t-t, JA 59,76,77,78,91, 102, 106, 109, II0, lll, and II2
and Motion For Order to Show Cause to Issue to Michael J. Gleason, James E.
Heffner, and Marni Rubin Watkins Why They Should Not Be Held in Contempt
of This Court, Sanctioned and Disciplined For Violations of the Rules of This
Court and the Nevada Rules of Professional Conduct**) Replies due by
9/21/2014. (Attachments: # I Exhibit A-D)(ll/atkins, Marni) (Entered:
09/1 r/2014)
0911s12014

155

RESPONSETo 122 MOTION to Strike 90 Joinder of Quality Loan Service
Corporation to Motion to Dismiss (Doc. j9) and to Expunge Lis Pendens (Doc.
38) as Untimely and in Violation of Local Rules and Fed. R. Civ. P. 55(c) and
Request for Consideration of Sancti, filed by Defendant Quality Loan Service
Corporation. Quality Loan Service Corporation Opposition to Motion to Strilre
Replies due by 9/25/2014. (Schuler-Hintz, Kristin) (Entered: 09/15/2014)

0911s12014

156

MOTION to Set Aside MotionTo Set Aside Default by Defendant Quality
Loan Service Corporation. Responses due by 101212014. (Schuler-Hintz,
Kristin) @ntered : 09 / 1 5 /2014)

09n6/2014

157

MOTION to Strike 73 Joinder, 88 MOTION to Substitute Attomey ,72
Certificate of Interested Parties,,, 105 MOTION to Set Aside 95 Clerk's Entry
of Default, , 149 Reply to Response to Motion,74 Joinder, by Plaintiff Michael
Harkey. Responses due by 101312014. (Attachments: # I Exhibit A, B, and C)
(Posin, Mitchell) @ntered: 09 / I 612014)

09/1612014

158

MOTION to Strike 150 Reply to Response to Motion by PlaintiffMichael
Harkey. Responses due by 101312014. (Attachments: # I Exhibit A and B)
(Posin, Mitchell) (Entered: 09 I 1 61201 4)

091t712014

159

MOTION to Set Aside 110 Declaration, I l2 Memorandum, I I l. Declaration,
109 MOTION to Set Aside Default, 113 Notice of Corrected ImagelDocument,
103 MOTION to Withdraw 95 Clerk's Entry of Default, and Conect Clerk's
Entry of Default (attached) by Defendants Christina Allen, Earl Beutler, Eve
Beutler, Black Knight Financial Services, LLC, Fidelity National Financial Inc,
Shoua Moua. Responses due by 101412014. (Watkins, Marni) Removed
dup-licate w-ord in s. (.ASB ) (Entered : 09 I 1 7 I 20 1 4)

09/1712014

160

MEMORANDUM filed by Defendants Christina Allen, Earl Beutler, Eve
Beutler, Black Ifuight Financial Services, LLC, Fidelity National Financial Inc,

\-

httns'//ecf nvd rrscorrrts.sov/csi-bin/DktRnt.ol?t02364100510338-L

1

1-1

9/412017

Page 3 I

CM/ECF - nvd - District Version 6.1

Shoua Moua re 159

ol'/9

MOION to Set Aside. (Watkins, Marni) Removed

duplicate wording. (ASB) (Entered : 09 I 1l

1201

4)

re 159 MOTION to Set Aside by
Defendants Christina Allen, Earl Beutler, Eve Beutler, Black Knight Financial
Services, LLC, Fidelity National Financial Inc, Shoua Moua. (Watkins, Marni)
Removed duplicate wording. (ASB) (Entered: 0911712014)

DECLARATION of

James E. Heffner

09/1712014

161

09t1712014

162 Mail Returned as Undeliverable re 87 ,95 , 98 ,99 , 143-, addressed to Joseph
Noel. No New Address. Did Not Resend. (Attachments: # 1 Mail Returned,#2
Mail Returned) (SLR) (Entered: 09118/2014)

0912212014

163

09122/20t4

t64 CERTIFICATE of Interested

09/2212014

165

09t2212014

166 JOINDER to 131 MOTION to Stay re 57 Answer to Amended Complaint
Motion to Stay Computer-Generated Rule 26(fl Deadlinefor reasons setforth
in the Motion to Stay ; Certain Defendants Joint Qualified Joinder to Motion to
Stay Computer-Generated Order Setting Deadlinefor Filing Of Fed. R. Civ. P.
2 6 (F) Dis covery Plan filed by Defendants Merscorp Holdings, Inc., Mortgage
Electronic Registration Systems, Inc. (MERS). (Stutnan, Erica) @ntered :

CERTIFICATE of Interested Parties filed by Christina Allen, Earl Beutler, Eve
Beutler, Black Knight Financial Services, LLC,Fidelity National Financial Inc,
Shoua Moua that identifies all parties that have an interest in the outcome of
this case. Corporate Parent BLACK KNIGHT HOLDINGS,INC., Corporate
Parent Investors Black Knight I Holding Corp. for Black Knight Financial
Services, LLC, Fidelity National Financial Inc added. of Defendant Black
Knight Financial Services, LLC.. (Wa&ins, Marni) (Entered: 0912212014)
Parties filed by Christina Allen, Earl Beutler, Eve

Beutler, Black Knight Financial Services, LLC, Fidelity National Financial lnc,
Shoua Moua that identifies all parties that have an interest in the outcome of
this case. Corporate Parent BLACK KNIGHT HOLDINGS, INC. for Fidelity
National Financial Inc added. of Defendant Fidelity National Financial, Inc..
(Watkins, Marni) @ntered: 09 l22l20l 4)
JOINDER to 38 MOTION to Expunge Lis Pendens , 39 MOTION to Dismiss
filed by Defendants Black Knight Financial Services, LLC, Fidelity National
Financial Inc. (Watkins, Marni) (Entered: 0912212014)

;

0912212014)
0912412014

167

VACATED

pe r

document#253

,

SI'Rj Modified on8llll20ls (RFO. (Entered: 0912412014)
09125/2014

168

0912912014

169

h++^o.//anf nrrrl rrsnnrrrfs

REPLY to Responseto 122 MOTION to Strike 90 Joinder of Quality Loan
Service Corporation to Motion to Dismiss (Doc. 39) and to Expunge Lis
Pendens (Doc. 38) as Untimely and in Violation of Local Rules and Fed. R'
Civ. P. 55(c) and Request for Consideration of Sanctions filed by Plaintiff
Michael Harkey. (Posin, Mitchell) cleilred up text. (ASB) (Entered:
09l2sl2ot4)

onv/coi-hinff)ktRnf nll'lO?.3541005 10338-L I l-1

91412017

CMiECI' - nvd - District Verston

yage 32

6.1

oI

19

Undeliverable re 161 Order, addressed to Joseph Noel' No
New Address, Did Not Resend. (SLR) (Entered: 0913012014)

Mail Retumed

1010212014

l0/02120t4

1010212014

t0/0312014

as

110 VERIFIED PETITION for Permission to Practice Pro Hac Vice by Bridget B
Burns and DESIGNATION of Local Counsel Martin L. Welsh (Filing fee $
200 receipt number 0978-3409002) filed by Defendant Michelle Nguyen .
Motion ripe 101212014. (Welsh, Martin) (Entered: 1010212014)

t7l

VERIFIED PETITION for Permission to Practice Pro Hac Vice by Mark S.
Bagula and DESIGNATION of Local Counsel Martin L. Welsh (Filing fee $
200 receipt number 0978-3409026) filed by Defendant Michelle Nguyen .
Motion frpe 1012/2014. (Welsh, Martin) @ntered: 1010212014)

172 RESPONSE to 156 MOTION to Set Aside Motion To Set Aside Default,filed
by PlaintiffMichael Harkey. Replies due by 1011212014. (Posin, Mitchell)
(Entered: 1010212014)
173

RESPONSE to 1,57 MOTION to Strike 73 Joinder, 88 MOTION to Substitute
Attorney ,lZ Cirtifrcate of Interested Parties,,, lp5 MOTION to Set Aside 95.
Clerk's bn.y of Default, , 149 Reply to Response to Motion,74 Joinder,, filed
by Defendants Merscoqp Holdings, Inc., Mortgage Electonic Registration
Systems,Inc. (MERS). Replies due by l0ll3l2}l4. (Stutman, Erica) (Entered:
1010312014)

RESPONSE to 158 MOTION to Strike 150 Reply to Response to Motion,
filed by Defendani Wells Fargo Bank, N.A.. Replies due by 1011312014.
(Crowton, Chelsea) (Entered: 101 03 l20l 4)

1010312014

174

1010612014

t75 RESPONSE to

MOTION to Set Aside, fited by Plaintiff Michael Harkey
(Computer-set deadtine was Saturday, October 4, 2014/Reponse is timely per
'Fed.
R. Civ. P. 6(a)(1)(C) Replies due by 1011612014. (Posin, Mitchell)
159

@ntered: 1010612014)
t012112014

176

r012212014

177

1210712014

118

MOTI oN to StaY re 94 Joinder ) 4 6 Joinder t 165 Joinder 74 Joinder, 90
J oinder, 39 M o TION to Dismiss filed by P laintiff Michael Har key Motion
npe 1 012I 120 1 4 (Posin, Mitchell) (Entered: I 012 1 1201 4 )
RESPONSE to 38 MOTION to Expunge Lis Pendens, filed by Plaintiff
Michael Harkey. Replies due by lllll2}l4. (Attachments: # I Exhibit A)
(Posin, Mitchell) (Entered: l0 12212014)

RESPONSETo II6MOTION to Stay re 94 Joinder,ls.Joinder, 165 Joinder,
Defendants csMC
7l Jo^d"r,90 Joinder, 39 MOTION to Dismiss, filed bySuisse
First Boston
Mortgug" b*t.a Trust 2007-6,Kimberly Clark, Credit
MortEuE" Securities Coqporation, DLJ Mortgage Capital,Inc., Bill Koch,
Fargo
Seleci portfotio Servicing, U.S. Bank, N.A., US National Bank, Wells
Bank, N.A.. Replies due by l2llll20l4. (crowton, chelsea) (Entered:

t2l0tl20t4)
1210712014

179

NOTICE of Non-Opposition to Defendants' Motion to Dismiss by CSMC
Boston
Mortgage backed irust 2007-6, Kimberly Clark, Credit Suisse First
Koch,
Bill
Mortlale Securities Corporation, DLJ Mortgage Capital,Inc.,

1,rr-o.//enf nrrrt rrsnnrrrtq onv/esi-hin/DktRnt-nl?102364100510338-L

I

i-1

91412011

Page J'3 ol'19

CM/ECF - nvd - District Version 6.1

Select Portfolio Servicing, U.s. Bank,

N.A., Wells Fargo Bank, N.A. re 39

MOTION to Dismiss . (crowton, chelsea) (Entered: 1210712014)
1210712014

180

MOTION to Consolidate Cases 2 : I 4-cv-00 I 77 -RFB-GWF and 2 : I 4-cv-0 I 2 66APG-VCFby Defendants cSMC Mortgage Backed Trust 2007-6, Kimberly
Clark, Credii Suisse First Boston Mortgage Securities Corporation, DLJ
Mortiage Capital, Inc., Bill Koch, Select Portfolio Servicing, U.S. Bank, N'A.,
US N-attnal bank, Wells Fargo Bank, N.A.. Responses due by 1212412014'
(Crowton, Chelsea) @ntered: 12/07 12014)

t2lt0l20l4

t2lt2l20l4

1

81

182 RESPONSE to 38 MOTION to Expunge Lis Pendens , filed by Plaintiff
Michael Harkey. Amended due to mistakenfiling of Exhibit A twice without
due by
filing the Response on October 22, 2014 (See Doc. I77) Replies
in Case
Order
proposed
Wh./2014. (Ruachments: # Exhibit A: Motion and
No. 1 3-cv-503)(Posin, Mitchell) (Entered : l2l 121201 4)

l

l2lt5l20l4

183

Mail Returned as Undeliverable re l8l Minute Order Setting Hearing on
Motion, addressed to Joseph Noel. No New Address, Did Not Resend. (SLR)
(Entered: 12/1612014)

r2lt6l20t4

184

MOTION to Stike 179 Notice (Other), J78 Response to Motion, by Plaintiff
Michael Harkey. Responses due by ll2l20l5. (Attachments: # I Index Exhibit
List, # 2 Exhibit l,# lExhibit 2,# 4 Exhibit 3)(Posin, Mitchell) (Entered:
12/1612014)

0ll}sl20l5

18s

0U0612015

186

0U07/2015

187

Joint STATUS REPORT Pursuant to Court's Order [Doc' 167Jby Defendants
Merscorp Holdings, Inc., Mortgage Elechonic Registration Systems, Inc.
(MERS). (Byrne, Patrick) (Entered : 01l0sl20ts)

MINUTES OF PROCEEDINGS - Motion Hearing held on 11612015 before
Magishate Judge George F oley Jr Crfm Administrator: E. Garcia; Pla
Counsel Mitchell Posin; Def Counsel Patri ck Byrne, Marni l4/atkins, James
m.
Heffner, Chelsea Crowton and Tess Johnson; Court ReporterlFTR # 2 3 4p.
hears
2 3 9p. m. Courtroom 3A ) The Court makes preliminary remarks and
4-cv- I 77
representations of counsel as to 180 Motion to Consolidate Cases 2
,)
RFB- G WF and I 4-cv- I 266-AP G-VCF The Court hereby orders that
CF rs
defendant' s motion to consolidate ls granted. Case 2 4-cv- I 2 66-APG- V
.RFB-G WF as the earl rer case
consolidated wl th the earlier action, 2 I 4-cv- 1 77
which will be the pnmary acti on ln which pleadings should be filed. (Copies
have been distributed pursuant to the NEF EM G ) (Entered: 0 I 106120 1 s)
Second MOTION to Extend Time regarding dispositive matter (Second
by
Request) to SPS Motion to Dismiss in Case No. l4-cv-1266 (consolidated)

PlaintiffMichael Harkey. Motion ilpe
0U07l2ols)

l'+r^o.//an.Fnrrd rrcnnrrrte onr;/noi-hin/T)ktRnf nl21O)75410051

11712015. (Posin,

0i38-T. 1

1

-1

Mitchell) (Entered:

9/412017

yage 34

CMIECF - nvd - District Version 6.1

0U16120t5

188

oI /9

MINUTE ORDER IN CHAMBERS of the Honorable Judge Richard F.
Boulware,II, on 111612015.IT IS HEREBY ORDERED that a motion
hearing is set for Friday, January 23,,2015 at 10:30 AM in LV Courtroom
7C before Judge Richard F. Boulware,II. The following rnotions will be
addressed: 38 Motion to Expunge Lis Pendens, 62 Motion to Extend Time,97

Motion to Set Aside Entry of Default, 103 Motion to Withdraw Entry of
Default, 105 Motion to Set Aside Entry of Default, 109 Motion to Set Aside
Default, 118 Motion to Strike, 122 Motion to Strike, 126 Motion to Strike, 156
Motion to Set Aside Default, 157 Motion to Strike, 158 Motion to Stdke, 159
Motion to Set Aside Default, 176 Motion to Expand Stay, 184 Motion to
Strike. IT IS FURTHER ORDERED that those parties whose default has
been entered shall nonetheless appear at the hearing. (no image attached)
(Copies have been distributed pursuant to the NEF - BEL) (Entered:
0Ur61201s)
0U2012015

189

MOTION to Amend/Correct Complaint re I Amended Complaint,,,.for Leave
to File Second Amended Complaint by Plaintiff Michael Harkey. Responses
due by 21612015. (Attachments: # I Proposed Second Amended Complaint, # 2
Exhibit List for Exhibits l-17,# 3 Exhibit l,# 4 Exhibit 2,# 5 Exhibit 3,# 6
Exhibit 4,# 7 Exhibit 5, # 8 Exhibit 6,# 9 Exhibit 7,# l0 Exhibit 8, # 11
Exhibit 9,# 72 Exhibit 10, # 13 Exhibit 11, # 14 Exhibit l4)(Posin, Mitchell)
Removed.gxtra exhibit descriptors. (AS B) @ntered: 0l 120l20l 5)

0v20l20ts

190

18-30 (Filed Separately Due to Byte Limitationto 189 MOTION
to Amend/Correct Complaint re 8 Amended Complunt,,,.for kave to File
Second Amended Complaint; filed by Plaintiff Michael Harkey. (Attachments:
# Exhibit r8,# 2 Exhibit 22,# lExhibit 23,# |Exhibit 24,# SExhibit 25, #

EXHIBIT(s)

l

6Exhibit 26,#7 Exhibit 27,#8 Exhibit 28,#9 Exhibit 28A,# 10 Exhibit28B,
# 11 Exhibit29,# 12 Exhibit 30)@osin, Mitchell) Removed exha exhibit
descriptors. (ASB) (Entered:

0U20120t5

191

0 1/20120 I

5)

RESPONSETo 67 Notice of Corrected Image/Document, 138 VERIFIED
PETITION for Permission to Practice Pro Hac Vice by Michael J. Gleason and
DESIGNATION of Local Counsel Marni Rubin Watkins (Filing fee $ 200
receipt number 0978-3374096) filed by Defendant Shoua Moua, 129
VERIFIED PETITION for Permission to Practice Pro Hac Vice by Michael J.
Gleason and DESIGNATION of Local Counsel Mami Rubin Watkins (Filing
fee $ 200 receipt number 0978-3371645) filed by Defendant Christina Allen ,
68 Notice of Corrected Image/Document, 137 VERIFIED PETITION for
Permission to Practice Pro Hac Vice by James E. Heffirer and DESIGNATION
of Local counsel Marni Rubin watkins (Filing fee $ 200 receipt number 0978'
3374082) filed by Defendant Shoua Moua, 130 VERIFIED PETITION for
Permission to Practice Pro Hac Vice by James E. Heffrrer and DESIGNATION
of Local Counsel Marni Rubin Watkins (Filing fee $ 200 receipt number 09783371653) filed by Defendant Christina Allen ; filed by Defendants Christina
Allen, Earl Beutler, Eve Beutler, Black Knight Financial Services, LLC,
Fidelity National Financial Inc, Shoua Moua. (Watkins, Marni) (Entered:

oU20/2015)
0U20120t5

192 ORDER Granting 170 Verified Petition for Permission to Practice Pro Hac
Vice for Attomey Bridget B. Burns for Michelle Nguyen and approving

L++no.lloo€m rrl rrcnnrrrfc onrr/coi-hin/T)lctRnt n111O)7641005

10338-I- 1

1-1

9/412017

Page 35

CM/ECF - nvd - District Version 6.1

oI

19

Designation of Local Counsel for Attorney Martin L. Welsh. Signed by Judge
Richard F. Boulware,II on 112012015.
Any Attomey not yet registered with the Court's CM/ECF System shall submit
a Regishation Form on the Court's website www.$vd.uscourts.gov
(Copies have been distributed pursuant to the NEF - SLR) (Entered:

0U2Il20ts)
0U20l20ls

t93 ORDER Granting 171 Verified Petition for Permission to Practice Pro Hac
Vice for Attorney Mark S. Bagula for Michelle Nguyen and approving
Designation of Local Counsel for Attorney Martin L. Welsh' Signed by Judge
Richard F. Boulware, II on 112012015.
Any Attorney not yet registered with the Court's CMIECF System shall submit
a Registration Form on the Court's website www.nvd.uscourts.gov

(coples have been distributed pursuant to the NEF - SLR) (Entered:

0v2v20ls)
0U2ll20ls

II,
194 MINUTE ORDER IN CHAMBERS Of thE HONOTAbIE RiChATd F. BOUIWATE,

onll2ll20l5.
IT IS HEREBY ORDERED that the following motions shall also be
AM in LV
addressed at the hearing set for Friday, January 23,2015 at 10:30

Second
Courtroom 7C:39 Motion to Dismiss and 189 Motion for Leave to File
distibuted
been
(Copies
have
Amended Complaint. (no image attached)
pursuant to the NEF - BEL) (Entered: 0ll2ll20l5)

011211201s

195

RE:
RESPONSE to 191 Response - Other,,,, ; to Letter of Marni Rubin llatkins
E'
Petitions fo Admtsston i'ro Hac Vice of Michael J- Gleason and James
(Entered:
(Posin,
Mitchell)
Heffnernt.a ty Plaintiff Michael Harkey.

0v21/2ors)

0v2ll20ts

r96 ORDER Granting 64, 65, W-, 128, I2g, f3-Q', 137, andl38 Verified
petitions for permission to Practice Pro Hac Vice for Attorney Michael J.
Gleason and Attorney James E. Heffrrer for Earl Beutler and approving
Designation of Local counsel for Attomey Mami Rubin watkins.
evidentiary
Denying 83 Motion to File Surreply and accompanying request for
hearing.
Reply
Granting in part and Denying in part 117 and 123 Motions to strike 76
and 78 Declaration.

Within 5 days defendants Black Knight Financial Services, LLC and Fidelity
verified
National Financial Inc. shall refile thiir Reply in Support of the 76
also refile the
Petitions to Practice Pro Hac Vice and Defendants shall
Declaration of James E. Heffner in Support of Defendants Reply.

(Copies have been
Sigped by Judge Richard F. Boul ware, ll on 112712015.
distributed Pursuant to the NEF - SLR) (Ente red: 0l l22l20l 5)
011221201s

r97

8 Amended
RESPONSE to J89 MOTION to Amend/correct complaint re
fil
by Defendant
ed
Complaint ,,,.for Leave to File Second Amended Complaint,

r.++--.//anf nrrrt rrcnnrrrfc .nrr/noi-hin/DkfRnt.nl?1021641005

10338-L 1 l-l

91412017

